<html>
<title> - PITFALLS OF UNILATERAL NEGOTIATIONS AT THE PARIS CLIMATE CHANGE CONFERENCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                  PITFALLS OF UNILATERAL NEGOTIATIONS
                 AT THE PARIS CLIMATE CHANGE CONFERENCE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 1, 2015

                               __________

                           Serial No. 114-52

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 97-771 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001         
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                            C O N T E N T S

                            December 1, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    11

                               Witnesses:

Mr. Oren Cass, Senior Fellow, Manhattan Institute for Policy 
  Research
    Oral Statement...............................................    13
    Written Statement............................................    16

Mr. Andrew Grossman, Associate, Baker & Hostetler LLP
    Oral Statement...............................................    33
    Written Statement............................................    36

Dr. Andrew Steer, President and CEO, World Resources Institute
    Oral Statement...............................................    53
    Written Statement............................................    55

Dr. Bjorn Lomborg, President, Copenhagen Consensus Center
    Oral Statement...............................................    98
    Written Statement............................................   100
Discussion.......................................................   119

             Appendix I: Answers to Post-Hearing Questions

Dr. Andrew Steer, President and CEO, World Resources Institute...   152

Dr. Bjorn Lomborg, President, Copenhagen Consensus Center........   158

            Appendix II: Additional Material for the Record

Document submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   162

Statement submitted by Representative Suzanne Bonamici, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   170

Statement submitted by Representative Elizabeth H. Esty, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   175


                  PITFALLS OF UNILATERAL NEGOTIATIONS



                 AT THE PARIS CLIMATE CHANGE CONFERENCE

                              ----------                              


                       TUESDAY, DECEMBER 1, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:08 a.m., in Room 
2318, Rayburn House Office Building, Hon. Lamar Smith [Chairman 
of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Smith. The Committee on Science, Space, and 
technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Welcome to today's hearing entitled ``Pitfalls of 
Unilateral Negotiations at the Paris Climate Change 
Conference.'' I'll recognize myself for an opening statement 
and then the Ranking Member.
    The Obama Administration's new electricity regulations will 
increase the control of the federal government over the lives 
of Americans and will burden American families. President Obama 
intends to submit these costly new requirements as the 
cornerstone of his proposal at the Paris U.N. climate 
conference. These severe measures will adversely affect our 
economy and have no significant impact on climate change.
    The President has pledged that the United States will cut 
its greenhouse gas emissions by as much as 28 percent over the 
next decade and by 80 percent or more by 2050. The pledge was 
made in preparation for the U.N. meeting now underway in Paris, 
which seeks to produce an international agreement that would 
impose legally binding requirements on the United States for 
decades to come.
    However, the Committee learned from last month's hearing 
that the cornerstone of this Administration's climate pledge 
reduction, the so-called Clean Power Plan, will do nothing to 
meet the President's pledge.
    Moreover, this regulation will cost billions of dollars, 
cause financial hardship for American families, and diminish 
the competitiveness of American employers, all with no 
significant benefit to climate change. In other words, it's all 
pain and no gain.
    It is well-documented that the EPA's Power Plan will shut 
down power plants across the country, increase electricity 
prices and cost thousands of Americans their jobs.
    The U.S. pledge to the U.N. is estimated to prevent only 
one-fiftieth of one degree Celsius temperature rise over the 
next 85 years. Incredible. This would be laughable if it 
weren't for the tremendous costs it imposes on the American 
people. EPA's own data shows that this regulation would reduce 
sea level rise by only 1/100 of an inch, the thickness of three 
sheets of paper.
    The President's Power Plan is nothing more than a power 
grab. It disregards the opposition of the majority in Congress 
and the governors of most states. The President attempts to 
justify his actions by scaring people with worst-case scenarios 
and biased data.
    An example of how this administration promotes its suspect 
climate agenda can be seen at the National Oceanographic and 
Atmospheric Administration. Its employees altered historical 
climate data to get politically correct results in an attempt 
to disprove the 18-year lack of global temperature increases.
    NOAA further perpetuates the administration's agenda by 
dismissing accurate and calibrated satellite data. This data, 
considered by many to be the most objective, has clearly showed 
no warming for the past two decades. So NOAA and this 
Administration simply chose to ignore the satellite data in its 
recent report. NOAA conveniently issued its news release 
promoting this report just as the Obama administration was 
about to announce its extensive climate change regulations.
    When the Science Committee raised concerns about NOAA's 
report, the agency refused to explain its findings and provide 
documents to the Committee. The American people have a right to 
see the data and know the motivations behind the study. The 
American people should be suspicious of this Administration 
when it continually impedes Congressional oversight of its 
extreme climate agenda.
    Furthermore, statements by President Obama and others that 
attempt to link extreme weather events to climate change are 
completely unfounded. The lack of evidence is clear: no 
increased tornadoes, no increased hurricanes, no increased 
droughts or floods. The Administration's claims are 
contradicted by the United Nation's Intergovernmental Panel on 
Climate Change itself.
    For instance, the IPCC found that there is ``low confidence 
on a global scale,'' that drought has increased in intensity or 
duration. The same lack of evidence can be found in the IPCC 
reports for almost every type of extreme weather.
    The administration's alarmism and exaggeration is not good 
science and intentionally misleads the American people. 
Congress has repeatedly rejected the President's extreme 
climate agenda. So the administration instead attempts to 
create laws on its own and to twist environmental regulations 
in ways Congress never intended. Now the administration has 
packaged up all these regulations and promised their 
implementation to the U.N.
    The President's pledge to the U.N. would increase 
electricity costs, ration energy and slow economic growth. The 
President's plan ignores good science and only seeks to advance 
a partisan political agenda. The President should come back to 
Congress with any agreement that is made in Paris. He won't 
because he knows the Senate will not ratify it.
    Today's hearing will demonstrate that the President's U.N. 
climate pledge is destructive to the American economy and would 
produce no substantive environmental benefits.
    [The prepared statement of Chairman Smith follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Eddie Bernice 
Johnson, is recognized for hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    Let me welcome our witnesses. I'd like to especially thank 
Dr. Steer for his testimony today. I understand that he's 
changed his flight to Paris at the last minute to accommodate 
this committee's invitation, and we need your expertise and 
opinions. And they will be appreciated as much here as in 
Paris.
    As we speak, representatives from more than 190 countries 
are meeting in Paris to reach a historic agreement to achieve 
reductions in global carbon emissions. I am pleased and proud 
to support the efforts of this Administration, and now the rest 
of the world, in taking meaningful steps to change--to address 
climate change.
    Every day, more and more people are waking up to the 
reality that climate is changing. Over the weekend, my 
constituents in Dallas, Texas, woke up from the Thanksgiving 
holiday to find streets submerged and homes flooded due to 
extreme rainfall that is only now showing signs of subsiding, 
cars being overrun. Sadly, eight people lost their lives in 
North Texas as a result of these floods. These same 
circumstances played out 6 months ago with equally tragic 
consequences.
    These kinds of extreme precipitation events are predicted 
to become more common with a changing climate, and they serve 
as a reminder that we must not forget how high the stakes truly 
are and what the true cost of inaction will be. The United 
States has been a leader on the world stage before and should 
be again. When faced with a difficult task, our nation has 
historically risen to the challenge. Our efforts to reduce 
carbon emissions through the Clean Power Plan and the Climate 
Action Plan have helped to motivate other nations to act in a 
similar manner.
    Climate change is not the problem of any one country. It is 
a problem facing all nations. And only through a combined 
effort can we be successful. Climate plans submitted ahead of 
the Paris talks are a clear indication that we are not alone in 
our commitment to reducing carbon emissions and to finding 
solutions to the impacts of climate change. These plans are 
already expected to reduce emissions substantially and reduce 
the average rise in global temperature to around 2.7 degrees 
Celsius.
    Ideally, the final agreement should have mechanisms in 
place to allow nations greater flexibility to change emission 
goals over time that will ultimately bring the average global 
temperature rise down to 2 degrees Celsius or less.
    Support for this kind of international agreement can only 
be found domestically among U.S. companies and leaders of 
industry. Eighty one companies, including Coca-Cola, AT&T, and 
the Walt Disney Company signed on to the American Business Act 
on Climate Pledge.
    Despite what some of my colleagues have been fond of 
saying, the long-recognized reality of good environmental 
regulation is that it helps, not hinders, the growth of 
economies. Further evidence of that fact was on display 
yesterday as leaders in China, India, Saudi Arabia, Brazil, and 
more than a dozen other nations joined the United States in 
launching Mission Innovation, a pledge to double investments in 
clean energy R&D over the next 5 years.
    At the same time, a group of 28 influential investors from 
10 countries led by Bill Gates has formed the Breakthrough 
Energy Coalition. These business leaders are committing 
billions of dollars of their own money to commercialize 
promising early-stage technologies developed in countries that 
are part of the Mission Innovation initiative. This powerful 
public-private partnership is just the most recent sign that 
the entire world is prepared to act accordingly and 
meaningfully to address climate change.
    The global climate system is complex. Solutions to address 
these problems are equally complex. However, I am confident 
that the enthusiasm for change going into the Paris conference 
will lead to a meaningful agreement to reduce carbon emissions.
    Mr. Chairman, I thank you and yield back. And I have to 
excuse myself to go to a conference committee. And I will try 
to return.
    [The prepared statement of Ms. Johnson of Texas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Chairman Smith. Okay.
    Ms. Johnson of Texas. Thank you.
    Chairman Smith. Thank you, Ms. Johnson.
    Our first witness today is Mr. Oren Cass, Senior Fellow for 
the Manhattan Institute for Policy Research. Mr. Cass focuses 
on energy, environmental, and antipoverty policy. He was the 
Domestic Policy Director of Mitt Romney's presidential 
campaign. Prior to joining the Manhattan Institute, Mr. Cass 
was a Management Consultant for Bain & Company. There he 
advised global companies across a range of industries on how to 
implement growth strategies in performance improvement 
programs. Mr. Cass received his bachelor's degree in political 
economy from Williams College and his law degree from Harvard 
University.
    Our second witness is Mr. Andrew Grossman, an associate at 
Baker & Hostetler. He has served as counsel in many prominent 
cases that raise significant issues of federal authority, the 
constitutional separation of powers, and individual rights. As 
a scholar, Mr. Grossman has written on administrative law, 
national security law, and the constitutional separation of 
powers. Mr. Grossman is a graduate of Dartmouth College and of 
University of Pennsylvania's Fels Institute of Government. He 
received his law degree from George Mason.
    Our third witness is Dr. Andrew Steer, President and CEO of 
World Resources Institute. Dr. Steer joined WRI from the World 
Bank where he served as Special Envoy for Climate Change since 
2010. Prior to this position, Dr. Steer was Director General 
and member of the Management Board at the United Kingdom 
Department of International Development. Dr. Steer served with 
the World Bank for over 20 years and has held a number of 
positions that include Country Director for Indonesia and 
Vietnam, and Director of the Environment Department. Dr. Steer 
received his Ph.D. in economics from the University of 
Pennsylvania.
    Our final witness today, and this is unusual, joins us from 
Paris via Google Hangout, and he is Dr. Bjorn Lomborg, 
President of the Copenhagen Consensus Center. The Copenhagen 
Consensus Center brings together many of the world's top 
economists, which include several--excuse me--seven Nobel 
laureates, to seek priorities for the world. Dr. Lomborg is an 
academic and the author of the best-selling books ``The 
Skeptical Environmentalist'' and ``Cool It.'' In addition, he 
is a visiting professor at Copenhagen Business School. Dr. 
Lomborg received his Ph.D. in political science from the 
University of Copenhagen.
    Now, Dr. Lomborg will actually be testifying last today 
because the videoconference that we have set up. And we'll 
begin now with the testimony from Mr. Cass.

           TESTIMONY OF MR. OREN CASS, SENIOR FELLOW,

            MANHATTAN INSTITUTE FOR POLICY RESEARCH

    Mr. Cass. Thank you, Mr. Chairman, and thank you to the 
Committee for inviting me to participate in today's hearing.
    My name is Oren Cass. I'm a Senior Fellow at the Manhattan 
Institute for Policy Research. My primary message to the 
committee is this: the climate policies pursued by this country 
under President Obama are a bad deal for the climate and a bad 
deal for the country.
    Globally, climate negotiations no longer bear a substantial 
relationship to the goal of reducing greenhouse gas emissions. 
The commitments known as INDCs made by various countries are 
voluntary, and those made by developing nations do not depart 
from their existing emissions trajectories.
    Ms. Johnson in her opening statement suggested that pledges 
will lower warming by 2100 to 2.7 degrees Celsius, but that 
analysis assumes other better actions will be taken at some 
point in the future and does not reflect what is actually 
included in the INDC commitments.
    The sum of all INDCs will likely affect the global 
temperature by the end of this century by 0 to 0.2 degrees 
Celsius. Indeed, the only likely achievement of the Paris 
conference is an agreement by developed nations, including the 
United States, to transfer enormous sums of--excuse me--
enormous sums of wealth to poorer countries.
    This outcome is not surprising to those skeptical that U.S. 
leadership on climate policy could persuade the developing 
world to make economic sacrifices for the sake of reducing 
emissions. However, it differs dramatically from the popular 
narrative in which Paris represents the historic combination of 
an effective process to bring the world together and act on 
climate.
    And it deals the harshest blow to anyone concerned about 
rising greenhouse gas emissions or interested in holding 
nations accountable for action. If progress under this process 
is supposed to come from peer pressure and so-called naming and 
shaming, then countries failing to take substantial and costly 
action should be named, shamed, and pressured. Instead, they 
are being applauded by the United Nations, the White House, the 
media, and nongovernmental organizations committed to climate 
action. This fatally undermines the entire enterprise for the 
sake of photo ops and political point-scoring.
    Domestically, even the Obama Administration acknowledges 
that its policies make sense only if they influence 
international action. For instance, EPA Administrator Gina 
McCarthy testifying before this committee in July did not argue 
that the Clean Power Plan will have a detectable impact on 
global temperatures. Rather, she suggested ``the value of this 
rule is not measured in that way. It is measured in showing 
strong domestic action which can actually trigger global 
action.''
    If the objective of this nation's climate policy is to spur 
international action, the empty commitments of Paris make clear 
that the policy has failed. Yet proponents, including Ms. 
McCarthy, continue to argue that new regulations, subsidies, 
and mandates are ends unto themselves, that even if the 
mitigation of carbon dioxide emissions will not itself produce 
meaningful benefits, we should regulate anyway because the 
impositions on the nation's energy sector will be good for the 
economy.
    This argument defies both common sense and empirical 
evidence. Honest discussion of the costs and benefits of 
environmental regulation must begin from the acknowledgement 
that regulation does in fact have costs.
    In the absence of climate benefits, carbon dioxide 
regulations cannot be justified by claiming that the economic 
costs are themselves the benefits. Climate policy that does not 
help the climate is not good policy. Europe has gone down this 
path, suffered the consequences, and is turning back, yet 
American policymakers in the White House seem determined to 
charge forward anyway.
    In summary, President Obama is placing the United States in 
a disastrous long-term position for the sake of securing a 
short-term political victory. In future years when the world 
revisits commitments made today, countries that we applauded 
for promising nothing will be able to show that they are on 
track because indeed they have promised to do what they are on 
track to do.
    Yet the United States, having put forward an aggressive 
commitment that even the President's Clean Power Plan cannot 
achieve, will likely find ourselves off track. Americans will 
incur the expense to take costly domestic action. We will 
potentially send billions of dollars overseas to countries that 
take no such action themselves, and yet as those countries' 
emissions grow unabated, we will be the ones facing scrutiny 
and criticism for violating the agreement that President Obama 
signs. This will be the President's climate legacy, and it is 
not a good one for the country.
    My written testimony provides additional detail on these 
points with respect to the INDC targets and commitments, as 
well as the analyses by economists and other scholars showing 
that environmental regulation does in fact have costs.
    Thank you again for the opportunity to appear before the 
Committee, and I look forward to answering your questions.
    [The prepared statement of Mr. Cass follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Smith. Thank you, Mr. Cass.
    Mr. Grossman.

               TESTIMONY OF MR. ANDREW GROSSMAN,

                ASSOCIATE, BAKER & HOSTETLER LLP

    Mr. Grossman. Thank you, Mr. Chairman and Members of the 
Committee. Thank you for holding this hearing today and 
inviting me to testify.
    The Committee has requested that I assess the legal aspects 
of the climate agreement being negotiated in Paris, and my 
conclusion is that, as a legal matter, Paris is a farce. The 
point of the Paris negotiations is to create new obligations in 
international law, but it is our constitutional separation of 
powers that will effectively determine the parameters of that 
agreement because of a decision that the President made.
    The President decided that he would not seek the advice and 
consent of the Senate to ratify the Paris agreement as a 
treaty, and he decided that he would not seek the legislative 
support of the House and Senate to implement the Paris 
agreement as a Congressional executive agreement. Instead, the 
President made the decision to do what he has done so many 
times in recent years: attempt to circumvent Congress and 
proceed on his own. Well, he's got his pen and he's got his 
phone, but what he doesn't have is the legislative power. And 
that means he is extremely constrained in terms of what he can 
lawfully accomplish through an executive agreement made on his 
sole authority.
    Let me concede that the President's authority to conclude 
executive agreements is a controversial subject with many legal 
scholars having differing views about the scope of that 
authority. But the law in this area is often uncertain. But 
it's not the uncertain parts that we're talking about today. 
The issues at play here are ones where there is broad agreement 
about what the President can and cannot do. That means we can 
review the likely components of a Paris deal and determine with 
great confidence where they stand under U.S. law.
    The two central objectives of the negotiations are 
financial commitments to foreign aid and emission reduction 
targets. These things cannot be implemented in any binding 
fashion consistent with U.S. law. The idea of the financial 
commitments, as I understand it, is for the United States and 
other developed nations to make transfer payments to the 
governments of poorer nations to coax them to forgo cheap 
energy from traditional high emission sources.
    There is an insurmountable legal issue here. The U.S. 
Constitution provides that no money shall be drawn from the 
Treasury but in consequence of appropriations made by law--in 
other words, a law enacted by Congress. For that reason, 
commitments of funds are often cited as the quintessential 
example of measures that the President cannot undertake on his 
sole authority.
    Now, I'm not aware of any serious disagreement on that 
point, so that is our legal conclusion. An agreement containing 
binding financial commitments cannot be executed on the 
President's sole authority.
    Binding emission reduction targets are likewise off the 
table. In assessing the President's authority to enter into an 
executive agreement, we look to historical practice and 
Congressional consents. The leading legal authorities echo 
Justice Jackson's formula from the Steel Seizure case. The 
President's authority to enter into executive agreements is 
secure where he draws on consistent support and historical 
practice and Congressional acquiescence. His power is at its 
lowest ebb where he lacks those things.
    The President lacks both of those things here. The 
historical practice is that international agreements concerning 
environmental protection have traditionally been entered as 
treaties in all or nearly every instance. And now that's 
according to an exhaustive survey by the Congressional Research 
Service.
    And that consistent practice includes the last major 
agreement concerning climate change to which the United States 
was a party: the United Nations Framework Convention on Climate 
Change. The ratification history of that treaty rebuts any 
claim that Congress has acquiesced in allowing the President to 
bind the Nation to emissions targets.
    When the Senate ratified the Framework Convention, it 
sought and extracted a pledge from the Bush Administration that 
any future protocol containing targets and timetables would be 
subject to Senate ratification. Subsequently, President Clinton 
signed the Kyoto Protocol, which did contain binding targets, 
but it was never sent to the Senate for ratification. It was 
never implemented. It was ultimately abandoned.
    In other words, the Kyoto Protocol, which concerns the very 
same subject matter as the Paris talks, was regarded by both 
political branches as a treaty subject to Senate ratification. 
And due to the inability to secure Senate ratification, the 
United States never deposited an instrument of ratification 
binding it to Kyoto's terms. In foreign relations law, that 
series of events constitutes incredibly strong precedent.
    I therefore agree with the CRS's conclusion that any court 
weighing the claim that the President may adopt and implement 
quantitative emissions reductions would most likely deem the 
executive's action an unconstitutional usurpation of 
Congressional power. This is why Paris is a farce. The two 
central planks of any agreement have already been ruled out due 
to the President's decision to go it alone.
    So where does that leave the President? I see two possible 
outcomes. The first is the solution proposed by the 
Administration, a so-called hybrid agreement. This would 
consist of legally binding and non-legally binding components. 
Foreign-aided emission target--foreign aid and emissions 
targets would be what the diplomats call political commitments, 
which means that they aren't legal commitments at all. In other 
words, they're nonbinding.
    The other possibility is more objectionable. There's a real 
risk, I fear, the Administration may view the red lines of U.S. 
law the same way it has viewed red lines in international 
affairs, as basically meaningless. What if the President 
purports on his sole authority to join a Paris protocol 
containing binding financial commitments and emissions 
limitations?
    I think that Congress can and should guard against this 
risk, and the way to do it is to make clear the limits on 
presidential legal authority in this area. If the President is 
not serious about holding the line, Congress can and should 
remind our negotiating partners, as well as the President, that 
they--so that they are under no illusions about what the United 
States is likely to do. In other words, where enforceable 
measures are concerned, there is no avoiding Congress.
    Again, I thank the committee for the opportunity to offer 
these remarks, and I look forward to your questions.
    [The prepared statement of Mr. Grossman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Smith. Thank you, Mr. Grossman.
    Dr. Steer.

                 TESTIMONY OF DR. ANDREW STEER,

                       PRESIDENT AND CEO,

                   WORLD RESOURCES INSTITUTE

    Dr. Steer. Thank you, Mr. Chairman. It's a great honor to 
appear before you this morning. My name is Andrew Steer. I'm 
the President and CEO of the World Resources Institute, a 
nonprofit, nonpartisan research institution working in 50 
countries.
    As I listened to the testimony from the other witnesses 
this morning and read Mr. Lomborg's written testimony, I hear 
three messages: first, that action against climate change will 
cost too much; second, that it'll hurt economic growth; third, 
that the climate deal under discussion in Paris won't achieve 
much.
    Our analysis suggests that each of these is false. Let me 
address each in turn. Two years ago, WRI set up--help set up 
the Global Commission on the Economy and Climate to seek to 
address the first two of these questions. The Commission 
comprises global leaders from private business, government, and 
research, is led by former President Felipe Calderon of Mexico, 
an economic advisory group consisting of some of the world's 
top growth economists, oversaw the technical quality of the 
work.
    On the costs of climate action, the Commission concluded 
that investment costs in a low-carbon future would rise 
slightly, by about four percent, but fuel savings alone would 
negate those increases. So the overall cost would be less than 
zero compared to current trends.
    But what about the impact on economic growth? Our work 
finds that far from undermining growth, smart policies to 
address climate change will promote competitiveness and growth. 
There are five paths through which this happens. First, action 
on climate change promotes resource efficiency such as through 
promoting energy efficiency, removing harmful energy subsidies 
and so on.
    Second, smart climate action promotes technological 
advance, an essential ingredient to increasing growth. There's 
a large literature that shows how this happens with the U.S. 
the leading player in such innovation and job creation.
    Third, smart climate policies reduce other environmental 
drags on the economy. In many cities in the world, real incomes 
are being dragged down by nearly ten percent by congestion and 
another ten percent by pollution. Smart climate policies can 
help address these.
    Fourth, clarity on climate policy can give long-term policy 
predictability, something that private investors crave and 
something they do not currently have.
    Finally, climate-smart policies can reduce the negative 
impact on growth of climate change itself, which unchecked will 
be very substantial. Combined, these impacts explain why strong 
climate action on--strong action on climate can create a 
healthier and more vibrant economy.
    This explains why so many companies now are advocating for 
action. More than 1,000 major companies are advocating for a 
price on carbon. Last week, a group of 78 major corporations 
sent an open letter to world leaders calling for bold action in 
Paris. It explains why more than 100 major global companies 
such as Coca-Cola, General Mills, Procter & Gamble have 
committed to set their own emissions reductions targets in line 
with what science says is necessary.
    It also explains why over 360 cities worldwide have signed 
on to the Compact of Mayors committing to track and reduce 
their own greenhouse gas emissions. One hundred and seven of 
these are from the United States: New York, Los Angeles, 
Chicago, Atlanta, Washington D.C., St. Louis, Phoenix, and so 
on. All of these players are advocating strong action and 
taking their own action because they believe it is good for 
their shareholders, their customers, and their citizens.
    On the third question, how much impact will the Paris deal 
have, our analysis shows that the climate pledges made by the 
183 countries will make a substantial difference in stopping 
climate change. We've analyzed more than a dozen recent studies 
that added up the contribution of these so-called INDCs. These 
put us on a track for a world that warms by 2.7 to 3.7 degrees 
Celsius over the next century depending on modeling 
assumptions. This compares to fou to five degrees Celsius of 
warming under a business-as-usual path.
    This is significant progress but it's not enough, and 
that's why the provisions for increasing ambition every five 
years, ensuring full transparency of reporting, and supporting 
low-income countries as they adapt to climate change that are 
all being negotiated this week in Paris are so important.
    Finally, we've done detailed technical analysis on how the 
United States can deliver its own climate targets. Our recent 
report delivering on the U.S. climate commitment, which I have 
here today, shows several pathways to get there.
    In closing, we believe that the U.S. political and 
technical leadership in solving the great challenge of climate 
change is absolutely necessary. As with many other challenges 
before, the United States is an indispensable leader. We also 
believe that the United States will benefit economically from 
playing such a role, and we believe that we can be proud of the 
role that the United States is playing at this present time.
    I look forward to answering your questions.
    [The prepared statement of Dr. Steer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
    Chairman Smith. Thank you, Dr. Steer.
    We'll now go to Dr. Lomborg, who is joining us from Paris. 
We very much appreciate his efforts to do so by video. I think 
it's 4:30 in the afternoon. I hope the weather is clear. And we 
look forward to your testimony.
    [The following testimony was delivered via teleconference.]

           TESTIMONY OF DR. BJORN LOMBORG, PRESIDENT,

                  COPENHAGEN CONSENSUS CENTER

    Dr. Lomborg. Thank you very much, Mr. Chairman, and thank 
you very much to all your honored members.
    I'm actually going to show you some slides, so I hope that 
this will work at the same time. So we're pushing the 
technology to its fullest.
    And so here it is. So fundamentally, I would like to show 
you two main points, namely, the impact and the cost of Paris. 
And this is perhaps not very surprising; I am going to take 
some issues with what Andrew Steer--Dr. Andrew Steer pointed 
out.
    So, look local global warming is an important issue. It's 
manmade. It's a long-term problem. But I think what we need to 
understand is that we have little sense of the scale.
    Let me just show you this, and this is the UNFCCC, the ones 
that are organizing the Copenhagen--sorry, the Paris meeting. 
If everybody does everything that is promised in Paris, we will 
cut the equivalent of 56 gigatons of CO<INF>2</INF> until 2030. 
This is incontrovertible. Obviously, you can talk about is it 
40, is it 50, might it be 60? And just to show you what we're 
trying to achieve, there's about--the 2 degree target will 
require us to cut more than 6,000 gigatons over the century.
    Mr. Steer and also the--Eddie Johnson mentioned that we're 
possibly on the road to 2.7 degrees. That would require about 
3,000 gigatons of reduction. So remember, we're 1 or two 
percent of the way. That's important because it gives us a 
sense of proportion.
    Now, let me to show you briefly with the Clean Power Plan. 
It will, if it's achieved, reduce temperatures trivially, as 
has been pointed out several times, but it'll reduce emissions 
by 4 gigatons by 2030 and 42 gigatons through the century.
    So again, just to show you the scale, 4, 42, and what we're 
talking about achieving is 6,000 gigatons. That's also why, if 
you run it in a standard climate model, you won't be able to 
tell the difference. It's in my description, but just to 
summarize it, if we just do the Clean Power Plan until 2030, it 
will reduce temperatures by 0.007 degrees Fahrenheit by the end 
of the century, and even if it continued in its full 
implementation until the end of the century, it will reduce 
temperatures by 0.0023 degrees Fahrenheit.
    Likewise, if you'll look at the U.S. climate promise, the 
promised to cut 26 to 28 percent below 2005 levels in 2025, it 
will reduce temperatures trivially. It will reduce 6 gigatons 
by 2025 and 100 gigatons throughout the century it.
    Again, just look at the changes here. We're talking about a 
very, very small impact. And that's of course why, if you run 
it in a climate model, again, you will get very, very small 
impacts. Again, if you actually keep your U.S. Paris promise 
until the end of the century, you will reduce temperatures by 
1/20 of a degree Fahrenheit.
    And let me just share with you what is the impact of all 
the INDCs, all the Paris promises. If you run this through a 
standard climate model, this is what you see. You can actually 
tell the difference but not by very much. So again, if we just 
keep our promise until 2030, which of course is the only thing 
on sale here, we will reduce temperatures by 0.09 degrees 
Fahrenheit. If indeed they are kept all the way through the 
century, they will reduce temperatures by about one third of a 
degree Fahrenheit. That is important because we're essentially 
talking about very small changes. At the same time, the costs 
are significant.
    Now, Andrew Steer would like us to believe that this is not 
very much. Actually, overall, we're going to see increases in 
growth and we're actually going to make money from this. But 
certainly all standard models, these are all the models from 
the Stanford Energy Modeling Forum, and all the other multi-
model forums have looked at the cost of climate policies 
through a variety of different models. They indicate on average 
the cost for the United States is going to be about $154 
billion if you do this well. And fundamentally, that's because 
if you make energy more expensive, it will inevitably affect 
everything. It's not the end of the world economically, but it 
does have a cost of a couple of percent of GDP and that's what 
turns out.
    Of course, we also know that most policies--I'm sorry for 
this committee to say that, but most policies are not perhaps 
most effectively implemented, and then we know they can be even 
more costly. So it's likely that we will see a cost of at least 
$1 trillion globally and maybe even $2 trillion. And remember, 
this is the cost per year.
    And so in summary, the impacts of Paris are small, about 1/
3 of a degree Fahrenheit at best. The cost of Paris is large. 
It's not a benefit. That's of course why we need everybody to 
cajole us into doing this. It's at least one trillion dollars a 
year. Spending $1 trillion to cut virtually nothing of 
temperature, that's perhaps not the best way forward.
    And that's why we really need to recognize if we want to do 
better, we owe it to the world to spend our money better both 
on focusing on R&D for green energy, as the Chairwoman pointed 
out. That is what Bill Gates is now making us focus on, and of 
course also realize that there are many other problems we need 
to fix as a world.
    So, again, I say thank you very much to the Committee, and 
I look forward to your questions.
    [The prepared statement of Dr. Lomborg follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Chairman Smith. Okay. Thank you, Dr. Lomborg, for that 
great testimony. I will recognize myself for questions.
    Actually, you've anticipated my first question, which was 
what impact would President Obama's pledge in Paris have on the 
Earth's climate? I think your word was it would have a trivial 
impact. You said all the pledges made in Paris would affect 
temperature by only 1/3 of a degree over the next 85 years, and 
the cost would be about $1 trillion a day. Is that all accurate 
as a summary?
    Dr. Lomborg. Yes.
    Chairman Smith. Okay. Here's a more recent question that 
just came up this morning because President Obama has said a 
few hours ago that he blamed climate change for flooding in 
Miami, Florida. The President said you go down to Miami, and 
when it's flooding at high tide on a sunny day, the fish are 
swimming through the middle of the streets, there's a cost to 
that.
    However, the President's statement that Miami flooding is 
linked to climate change in my view is entirely false and in 
fact disputed by meteorologists at the National Weather 
Service. Those meteorologists have reported that the lunar 
cycle and wind patterns are to blame for unusually high floods 
in Miami, not climate change.
    Do you feel that the President's statement linking the 
Miami floods to climate change is just another example of 
alarmist rhetoric or do you think it's accurate?
    Dr. Lomborg. Unfortunately, I'm going to tell you a little 
more complicated story. I don't know the specific issue of 
Miami, but in general, it stands to reason that as temperatures 
rise, as sea levels rise, we will have more problems, for 
instance, with flooding. But what is incredibly important is to 
recognize that most of these things we know very well how to 
deal with at very low cost through adaptation. The simple 
answer is the Dutch have shown the way for a couple hundred 
years.
    Chairman Smith. Okay.
    Dr. Lomborg. So, again, trying to deal with this through 
climate policies is probably one of the least effective ways to 
help people who are actually flooded.
    So remember, global warming is a problem. Global warming 
will cause problems, but the way that almost every catastrophe 
you see is being used as a way to bludgeon us to say we should 
cut carbon emissions as the only solution is unfortunately very 
often the worst or the least effective way to help.
    Chairman Smith. I understand, and I understand also and 
appreciate your talking about the need to put more funds into 
research and technology, and I totally agree with that.
    By the way, if it comes down to choice of taking the 
meteorologist's word for it or the President's word for it when 
it comes to Miami flooding, every time I'll go with the 
meteorologist.
    Let me go to Mr. Grossman for my next question, and it is 
this: How much impact on climate change, a little bit 
repetitive, will the Clean Power Plan have?
    Mr. Grossman. Well, by the Administration's own estimates, 
the impact is incredibly minor. And keep in mind that even 
assumes that the Clean Power Plan remains in law. In my view, 
the most likely outcome is that it has zero impact on climate 
because it is ultimately struck down by the courts as both 
unconstitutional and inconsistent with EPA's statutory 
authority.
    Chairman Smith. And if it is unconstitutional, what impact 
does that have on the President's pledge?
    Mr. Grossman. It would actually have an enormous impact, 
something like half of the--actually more than half of the 
estimated reductions that are fully enumerated in the INDC that 
the White House has released are attributable to the Clean 
Power Plan. So if that's off the table, we're not--under the 
way they've enumerated, we're still 30 percent short. In that 
instance, I think we would be something like 80 percent to 90 
percent short.
    Chairman Smith. Okay.
    Mr. Grossman. It's a very big gap.
    Chairman Smith. Okay. Thank you, Mr. Grossman.
    Mr. Cass, is any agreement President Obama makes legally 
binding on the United States?
    Mr. Cass. Well, I think, as Mr. Grossman testified, there 
are things that the President could agree to in Paris under his 
sole executive authority with respect to things like 
transparency and reporting measures, but he's not able to 
commit either to binding emissions reductions or to the 
appropriation of funds. Any of that would need to move through 
Congress.
    Chairman Smith. Okay. Thanks.
    And who would be hardest hit in the United States if the 
President's emissions reduction passage was implemented? Yes.
    Mr. Cass. I think the primary costs are in the energy 
sector and then on those who rely on the energy sector. So the 
expectation is certainly that electricity prices would rise, 
and that affects both consumers, as well as industries that 
rely heavily on the use of energy.
    Chairman Smith. And so the American family will pay a 
price?
    Mr. Cass. That's exactly right, and that's what they've 
seen happen in Europe when they tried to pursue similar 
policies.
    Chairman Smith. Okay. Thank you, Mr. Cass.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you to all the witnesses for being here.
    I'm encouraged this morning because I heard both Dr. 
Lomborg and Chair Smith talk about the importance of investing 
in technology and research in clean energy. I absolutely agree. 
I also understand, however, that it's important to reduce 
carbon emissions while we're doing that.
    Dr. Steer, thank you so much for being here. We appreciate 
your testimony. And you testified that businesses have 
recognized the economic value of action. And I agree. My home 
State of Oregon has many companies that have stepped up and 
demonstrated their commitment, companies like Nike, Genentech, 
Intel, Lam Research, Portland General Electric. They're among 
the more than 150 companies nationwide that have now signed the 
American Business Act on Climate Pledge. These companies have 
made business-specific commitments to take significant actions 
to address climate change, and they've expressed their support 
for a strong Paris agreement. And as we heard this morning, 
just a few days ago, Bill Gates unveiled the world's largest 
clean energy research and development partnership, all very 
encouraging.
    So, Dr. Steer, how are these businesses supporting a strong 
international agreement? Can you talk a little bit about why 
these business leaders see this not only as a critical issue 
but also as economically viable and valuable to their bottom 
line?
    Dr. Steer. Thank you very much, Congresswoman.
    And let me also say how pleased I am that we are in 
agreement on research and development and the kind of 
announcement that President Obama and 20 other leaders 
yesterday made on a doubling of research and investment for 
renewable energy is profoundly encouraging, especially when 
linked to the private sector and the efforts of Bill Gates.
    The private sector has a very major role to play in the 
climate talks. This weekend, thousands of private sector 
leaders will gather in Paris, and they'll do two things. One, 
they'll say this is what we are doing. And many of them, for 
example, will say, look, we looked at the science. We have no 
actual obligations necessarily to reduce our own greenhouse 
gases legally but we're going to do it. And some of them are 
saying we're not only going to do better, we're going to do 
enough. That means that they are looking at the science and 
they're saying what would it take for us to do enough to reduce 
our greenhouse gases so that the problem will be solved?
    And in Paris there will be a whole set of coalitions that 
are announced on renewable energy, on energy efficiency, a 
whole range of issues related to greening supply chains, 
deforestation. So first, they're saying here's what we're 
doing; and then second, they're saying to governments, look, 
we're keen to act but you've got to help us out here.
    Since 1923, every economist has told us--since Professor 
Pigou at Cambridge University showed how you price 
externalities--that it is much better to tax bad things than 
good things. Stop taxing good things like your work and your 
profits and start taxing bad things like congestion and 
pollution. If you do that, the private sector is saying, you'll 
help us a lot because you'll shift the compass and you'll once 
and for all say we're going in this direction, which is better 
for our grandchildren rather than this direction.
    The problem they have at the moment is it's sort of a 
dance. They don't know whether we're heading towards a low-
carbon future or a high-carbon future. So they're saying 
please--to the government--act firmly, clearly, set a long-term 
target.
    Ms. Bonamici. Thank you. And you talked about here the 
private sector, but you also state that a growing body of 
evidence shows that economic growth is not in conflict with 
efforts to reduce emissions of greenhouse gases. And you 
mentioned the role of subnational actors like States in 
addressing climate change. Portland, Oregon, Mayor Charlie 
Hales is in Paris speaking as we speak.
    So when I served in the Oregon Legislature, we passed a 
renewable portfolio standard to require large utilities to 
increase the use of renewable resources. That and other 
policies and commitments have created meaningful employment in 
that sector, in clean energy. Can you talk further about your 
statement that environmental protection and economic 
development go hand-in-hand, especially when you combine the 
private sector and then the subnational actors as well?
    Dr. Steer. Yes, indeed. It wasn't long ago when we really 
did believe there was a tradeoff. It'd be nice to address 
climate change but it would cost us a lot. We've learned so 
much in the last few years. Even if one looks at the 
performance of stock markets, you will see if you take, for 
example, the CDP green index, you'll see over the last four 
years they performed considerably better than just any old 
Standard & Poor's index, for example. So going green actually 
pays.
    And as you say, Congresswoman, that the States that have 
put renewable energy standards, it turns out that actually 
citizens are saving money, just as we show that, for example, 
having fuel economy standards will save consumers--the new fuel 
economy standards will save consumers, you know, several 
thousand dollars in fuel over the life of the vehicle.
    And so adding these things together, there is a dynamism 
here that actually--that economic models can't capture very 
well. And here I do agree with my good friend Bjorn Lomborg 
here. I mean, economic models actually are deeply flawed in the 
sense that the economy is really a very dynamic thing. And it 
turns out the five things that I mentioned all add--all move in 
the same direction to show that actually climate action can 
lead to more economic growth. But very few economic models can 
really capture those well.
    Ms. Bonamici. Thank you, Dr. Steer. I see my time is 
expired. I yield back. Thank you.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
his questions.
    Mr. Lucas. Thank you, Mr. Chairman.
    Mr. Cass and Mr. Grossman, would you characterize any of 
the policies discussed in the United States such as major 
industrial CO<INF>2</INF> restrictions as flexible or adaptive? 
Either one, gentlemen.
    Mr. Cass. I would not. I think the Clean Power Plan in 
particular is marketed in that way but has been designed by EPA 
to give States very few options in how they proceed.
    Mr. Lucas. And would either one of you care to address how 
those restrictions will impact the industries and the consumers 
of those products ultimately?
    Mr. Cass. Sure. Essentially, what the Clean Power Plan 
attempts to achieve is to implement a cap-and-trade system on 
the country in direct contravention of the decision of the 
Congress not to implement such a cap-and-trade plan. And what 
that will do is force States to install significant amounts of 
renewable energy in place of the reliable fossil fuel baseload 
that they use today.
    The impact of that is to replace lower-cost energy sources 
with higher-cost energy sources, and it does not take a very 
sophisticated economic model to conclude that replacing lower-
cost sources with higher-cost sources is unlikely to reduce 
costs.
    Mr. Lucas. And the net effect is giving government the 
control over both the production and, in effect, the 
consumption of energy, which is a major expansion of economic 
power. Fair assessment, gentlemen?
    Mr. Grossman. If I could, it is. And it's one, 
interestingly enough, that this Congress has rejected on any 
number of occasions, holding that, you know, the mix of 
electricity and energy sources is something that really is left 
to the States for their regulation and something that has never 
been federalized and that, you know, has been resisted as a 
federal encroachment on State authority. And so this really--
the EPA's actions turn that on its head.
    Mr. Lucas. I'm going to take that one step farther. We 
are--we live in a very intensive energy consumption society in 
both the manufacturing and in our personal consumption. Would 
the federal government, having that kind of control over both 
the production of and the consumption of energy, picking 
winners and losers so to speak, it's fair to say that from this 
vantage point it's almost unimaginable what the consequences 
could be. Fair assessment, gentlemen?
    Mr. Cass. I think that's correct. And if I could make one 
additional point----
    Mr. Lucas. Please.
    Mr. Cass. --I think what we are seeing in the debate over 
the Clean Power Plan and the economic affect is really a very 
fundamental debate over whether an agency like EPA can manage a 
sector of the economy better than it will manage--be managed 
and operate in the free market.
    And so if you take, for instance, the testimony of Dr. 
Steer, the assumption he is making is that, in fact, we will 
get better efficiency and economic growth through government 
regulation than we get through the free market. I think that is 
something that has been asserted by those in favor of more 
government power at many points in history, and I think that is 
something that almost never works, and that there's no evidence 
it would work better in this situation.
    Mr. Lucas. And isn't it a fair assessment to say that 
industry already is in effect being stampeded as they try to 
figure out what's coming and how to prepare for that?
    Mr. Cass. That's absolutely true. I think one very 
concerning thing about the way that the EPA has operated is to 
essentially put forward rules that in many cases it realizes it 
may not have the authority for and simply force industry to 
respond before the courts can throw out the rule.
    I think we saw this in the Supreme Court's decision in 
Michigan v. EPA where it said EPA had overstepped its 
authority, and the EPA spokesman almost immediately put out a 
statement essentially saying, well, too bad; industry already 
had to adapt before you made your ruling so your ruling won't 
have much effect.
    And they're trying to do something similar with the Clean 
Power Plan, forcing States to move forward into a cap-and-trade 
structure before the question of authority is even resolved.
    Mr. Lucas. When I was a kid at home, we would have called 
that the bully bluffing.
    Mr. Cass. That would be a fair description.
    Mr. Lucas. Thank you. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentlewoman from Maryland, Ms. Edwards, is recognized.
    Ms. Edwards. Thank you very much, Mr. Chairman. And thank 
you to the witnesses today.
    I have to say I am just, you know, staggered yet again by a 
conversation where people acknowledge that there's climate 
change happening, but because we can only do things that are 
small or trivial, it seems worthless to do anything.
    Dr. Steer, you pointed out in your testimony that opponents 
of acting on climate change often state that the 
Administration's Clean Power Plan will be expensive, 
technically difficult, and not have meaningful impact on 
emissions. Given the history of this committee, I can't help 
but be reminded of what President Kennedy said when he charged 
the Nation to go to the moon. He said we do these things ``not 
because they are easy, but because they are hard; because that 
goal will serve to organize and measure the best of our 
energies and skills; because that challenge is one that we are 
willing to accept, one we are unwilling to postpone.''
    It does appear to me that what the Administration is doing 
with the Clean Power Plan and the commitment to the United 
Nations embodies the spirit of what President Kennedy was 
getting at. And to that end, Dr. Steer, I wonder if you could 
please elaborate on a statement that you make in your testimony 
that the United States' carbon reduction targets are in fact 
achievable. Can you just describe how the United States can 
reduce carbon emissions to meet both its 2020 and '25 targets? 
And tell us what kind of market signal is being sent by these 
emissions targets.
    Dr. Steer. Thank you very much. Yes, we've done a great 
deal of analysis of this both at the overall national level and 
at the State level as well. We've produced a report which lays 
out 10 actions that can be taken that actually will benefit 
business. Compliance costs, as you know, are estimated by 2020 
about 1.4 billion to 2.5 billion, but the health impacts alone, 
the benefits from health alone are 3.5 to 8.1 billion. If you 
go further out, the compliance costs rise to about 5 billion, 
but the health benefits alone are 32 billion. So--if you 
include climate benefits as well.
    So in other words, what you have got is a multiple of 
benefits compared to the costs. What we see is the--whether 
it's in energy efficiency, whether it's in expanding the fuel 
efficiency of vehicles, but also the power plant rule itself 
can be very, very doable and positive.
    Ms. Edwards. Thank you. And of course that drives both 
investment and spurs innovation in the clean energy 
technologies, which you also point out.
    And, Dr. Steer, I wonder if you could--and referring to Dr. 
Lomborg's testimony, he states, ``yes, manmade global warming 
is a reality and will in the long run have an overall negative 
impact.'' However, Dr. Lomborg also suggests in his testimony 
that the cost of acting to address climate change would be very 
large with little impact. Do you agree with this assessment, 
and if not, why not?
    Dr. Steer. Well, I certainly agree with his assessment on 
the need for R&D. I do not agree with his assessment on his 
modeling. Look, modelers can--I've been a modeler a lot of my 
life. You can choose any assumption. So what Dr. Lomborg does 
is he assumes that after 2030 countries will go back to their 
old ways. In other words, when China says we are going to peak 
our emissions, actually, as soon as they reach 2030, they're 
going to start increasing again.
    So if you make that kind of assumption, you are going to 
find that the impact is not very good and the costs are high. 
In fact, what will happen between now and 2030, because of the 
action, the price of technology will fall, as already is the 
case in many technologies. Renewables are increasingly more 
attractive. And what one will find is that there will be a 
virtuous cycle that happens, led by the private sector but 
empowered by clear signals from the public sector.
    Ms. Edwards. And that kind of assumes that, even as 
consumers, that we would want to go back to our old inefficient 
dirty cars, that we would want to go back to the old 
technologies that we use in our homes for heating and air-
conditioning. There are a lot of assumptions that go into a 
model where you basically stop in place instead of moving 
forward from that point, isn't that right?
    Dr. Steer. Yes, absolutely. And this has nothing to do with 
government versus private sector. I mean, Mr. Cass said that I 
was assuming that the government should be in charge of energy 
efficiency and everything. That's not the case at all. It will 
be the private sector that leads, but the government has a role 
to play for all kinds of well-known reasons that economists 
understand.
    So, for example, the Energy Star program in the United 
States has saved household utility bills 360 billion since 
1992. Do households want to go back to their old ways? Of 
course they don't.
    And what we're going to see actually is a very interesting 
dynamic take place. In the United States and in most other 
countries around the world, cities over the last hundred years 
have been designed for automobiles rather than people. And so 
in the United States we lose $1 trillion of GDP a year due to 
what's called sprawl. And this is technically estimated. A 
growing number of mayors around the world are saying actually, 
we don't want to do that.
    Houston, Texas, spends 14 percent of its citizens' income 
on traveling back and forth to work. Copenhagen spends four 
percent of its income. So once you can understand that actually 
having a more compact and connected city that's designed around 
people, so that's a dynamic that won't happen immediately, but 
by 2030, you watch. That will be happening precisely because of 
the dynamic reasons you're talking about.
    Ms. Edwards. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Edwards.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Yes, I'm pleased that you have a good idea 
of how the rest of us should live and where we should live and 
how close to the cities. And I don't think that's consistent 
with a free society, but I'm very pleased that you are able to 
express those views today. And I admire your courage to being 
here and--today. You've made some good points and you've got 
three other witnesses on the other side. Thank you for being 
here to give us some kind of balance to this. And the Chairman 
has seen--did invite you and you were invited by the minority 
also to provide that.
    But you've made a couple points that I thought that Mr. 
Lomborg--you mentioned his testimony. Maybe he'd like to have a 
chance to comment on what your comments were. Mr. Lomborg?
    Dr. Lomborg. Well, thank you very much. And the short 
version is, again, I'm very happy that we are both in agreement 
about the need for research and development. But if you look at 
what you think about the actual impact of Paris, now, there's 
definitely many different ways, as Andrew Steer pointed out, 
many different ways to do the modeling. But I would surmise 
that if you're going to look at what the impact of Paris--you 
look at what's actually promised in Paris, you don't look at 
all the extra things we might hope and wish and wait for the 
world is going to do in 2040, 2050 and on, unfortunately, 
that's almost all of what we're talking about here.
    As I tried to show, right now, Paris is promising about 50 
gigatons of CO<INF>2</INF> cuts. That is if everybody does 
everything they promised. Of course, remember back, Kyoto did 
not work out that way. And if we go even further back in 1992 
in the Rio Summit, all industrialized nations promised to cut 
their carbon emissions to 1990 levels in 2000, and almost none 
of them, except for the Eastern European bloc, kept that 
promise. So fundamentally, we have lots of wasted promises.
    But even then assuming that we'll have the 50 gigatons and 
then suddenly we will somehow magically get to 3,000 gigatons 
in order to get to 2.7 degrees, or 6,000 gigatons in order to 
get to 2 degrees is to me a very, very unlikely outcome.
    So if you'll allow me the metaphor, in some ways this is a 
little bit like, you know, looking at the Greek tragedy, the 
debt tragedy, and saying, oh, if they had decided they're going 
to pay off the next tranche of one of their loans in the next 
couple of months, hey, they're on their way to being debt-free. 
I mean that's technically true but very, very misleading 
because it means there's lots and lots of hard decisions that 
have to be taken in decades to come. And that's really the same 
conversation that we're having with this climate discussion. 
You can't just say, well, we're not only going to do this for 
2030, but we'll do all kinds of great things on the way through 
the century.
    Mr. Rohrabacher. Yes. One question of my own and then I'll 
let Dr. Steer have his retort to that. How much of the--we all 
admit that there's a changing of the climate. It's changed 
forever. I mean, the history of the globe is a constant change 
in the climate, constant adaptation of the planet to different 
factors that are going on. The question is, what impact is man 
having on the climate?
    And I recognize myself that we've had a lot of people 
advocating these restrictive policies. For example, the 
opposition to the Alaskan pipeline was long before anybody ever 
talked about global warming. People--and they were--it only won 
by one vote. The Alaskan pipeline only won by one vote in the 
United States Senate, and if they had all those--it had nothing 
to do with climate change then. It's just--there's a lot of 
people using climate change to achieve other goals.
    But what is--to the degree that the climate is changing 
because of nature, how much of that, Dr. Lomborg, how much of 
that is a result from CO<INF>2</INF>?
    Dr. Lomborg. Well, unfortunately, I an economist and a 
political scientist. I'm a modeler so I'm just going to give 
you the standard IPCC answer, but it's more than half. But I 
think you're very right in pointing out that because we know 
that we have survived many other changes in climate previously, 
we have to realize it's not the only way to deal with global 
warming to say let's cut carbon emissions and to keep 
temperatures at the same level. We also need to ask is it 
actually more efficient to adapt? And we definitely need to do 
both.
    Mr. Rohrabacher. I think Dr. Steer needs to have some time 
to retort that. Go right ahead.
    Dr. Steer. Well, thank you very much.
    Mr. Rohrabacher. I've only got 10 seconds so----
    Dr. Steer. Oh, thank you, Congressman, very much. By the 
way, it's not me who's suggesting where people should live. 
These are the mayors of cities who are democratically elected 
by their citizens.
    Look, Bjorn Lomborg has made certain assumptions. A 
professor at LSE Bob Ward said rather than calling it 
optimistic and pessimistic, we should call them highly 
pessimistic. So, too, a professor at MIT John Sterman says that 
Mr. Lomborg's assumptions grossly misrepresent the pledges that 
are being made at Paris. And so, you know, we can make any kind 
of assumption we want.
    But here's the point about whether or not this will 
continue. Consider Prime Minister Modi of India. He came into 
power last year not because he wanted to solve the environment. 
He came because he wanted to promote growth. One of the first 
things he says, he says I have 4 gigawatts of solar energy. The 
previous government had a target of 20 gigawatts. He said I 
want 100 gigawatts of solar energy by 2022. He didn't say that 
because he's a member of the Sierra Club. He said that because 
he thinks that will be good for his economy. And he's right. 
And he's not going to turn around. He wants to make the point 
that actually there's something dynamic going on here relating 
to these technologies and the jobs that come from it, new 
industries that will actually set his country on a more 
competitive path.
    Chairman Smith. Okay. Thank you, Mr. Rohrabacher.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair.
    As we speak, thousands of people have gathered in Paris for 
the U.N. climate change conference. And at this time more than 
170 countries have made intended nationally determined 
contributions, the INDCs we've heard of, outlining their 
commitments to reducing greenhouse gas emissions. These 
commitments cover nearly 95 percent of global greenhouse gas 
emissions. This is incredible momentum for an agreement, and it 
demonstrates the potential to achieve real progress using a 
bottom-up, inclusive approach to climate policy.
    We've always been able to improve the air we breathe and 
the water we drink, while simultaneously growing our economy 
and creating jobs. And I strongly believe that this will 
continue to be the case as we work to mitigate and adapt to 
climate change.
    An agreement in Paris certainly will not solve our climate 
crisis but is an important step forward. We need global 
cooperation from nations, subnational governments, businesses, 
and researchers. There may be difference of opinion around the 
world about the exact actions we should take, but I strongly 
agree with Dr. Steer that something must be done.
    Dr. Steer, New York has had a number of devastating natural 
disasters in recent years, including devastation from Super 
Storm Sandy, Hurricane Irene, and Tropical Storm Lee. In New 
York's 20th Congressional District, my home district, we used 
to talk about storms that came once every hundred or 500 years. 
This type of talk is no more with devastating weather events 
happening time and time again. I've sat with families who have 
lost everything and have witnessed the exorbitant cost that we 
are still trying to pay off from these extreme events.
    So I ask, in your testimony you discuss how extreme weather 
events are incredibly expensive. How do these costs affect 
communities and the Nation overall, and should we be factoring 
in these costs when calculating the overall cost of climate 
change?
    Dr. Steer. Thank you, Congressman. Yes, we definitely 
should. You know, it's so tempting to look at the economy, but 
actually these are human lives we're talking about. And whether 
it's in New York City or it's suburbs or whether it's in 
Bangladesh, the potential impact is vast on families.
    We cannot say that any particular extreme weather event is 
caused by climate change, but what we can do is say that the 
science, at least 97 percent of the leading science predicts 
that they will be more and more intense. That is clear.
    The interesting thing is the insurance companies seem to 
believe them because they're saying we need to act on this. And 
so it's not only the scientists, it's actually business now are 
saying this is not good enough.
    Mr. Tonko. Thank you. And one of the findings of the United 
States National Climate Assessment is that the impacts related 
to climate change are already evident in many sectors and are 
expected to become increasingly disruptive across the Nation 
through the century and beyond.
    In your testimony you mention the cost of delaying action, 
including concerns about national security and mounting harm to 
businesses, consumers, and public health. Can you please 
elaborate on the cost of not acting to address climate change 
on the United States?
    Dr. Steer. Well, each year we delay it will become more 
expensive. If we act strongly now, we can have a relatively 
smooth path in which we continue to grow and prosper each year, 
and we can keep growing and growing.
    If we fail to act soon, then the cost of adjustment will be 
much greater, and of course every year we get close to 
potentially very bad tipping points.
    Mr. Tonko. And in your testimony you state that businesses 
have recognized the economic value of action. In fact, Bill 
Gates unveiled the world's largest clean energy research and 
development partnership yesterday. Can you please comment on 
the importance of the private sector in addressing climate 
change?
    Dr. Steer. Yes, Congressman. The private sector is--at 
least a good proportion of it now is very, very concerned. The 
private sector does not like policy uncertainty, and they don't 
like risk. And the risks they face at the moment are twofold 
from climate change. One, the climate itself will undermine 
what they're doing as it changes; and second, they don't know 
when a policy reform will be brought in. And that may lead to 
billions of dollars of stranded assets. And so they face these 
two risks and they are saying we want some policy certainty. 
And they also believe that their own long-term bottom line is 
healthier with action on climate change.
    Mr. Tonko. Okay. With that, I yield back, Mr. Chair.
    Chairman Smith. Thank you, Mr. Tonko.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    A question for each of the three of the panelists here 
first and then we'll go on to the video gentlemen. Range of the 
temperature increase that you consider would be happening with 
climate change, Mr. Cass, did you have an estimate for that, 
the range of the temperature increase by the end of the 
century?
    Mr. Cass. As Dr. Lomborg said, I think I would also look at 
what the IPCC has projected, which, depending on the scenario 
you use, I think a number between 3.5 and 4 degrees Celsius is 
probably the best available estimate.
    Mr. Weber. Mr. Grossman, same question.
    Mr. Grossman. Mr. Congressman, I'm an attorney. I'm not a 
climate scientist or anything of the sort. But, you know, you 
look at the agreement here and all of that and you kind of 
wonder, you know, is it going to make any difference at all, I 
don't know.
    Mr. Weber. Okay. And, Dr. Steer?
    Dr. Steer. Without action, by the end of the century 
between 3.8 and 5 degrees Celsius with sea level rise of about 
1 to 2 meters.
    Mr. Weber. All right. I got the sea level rise as a bonus.
    And, Mr. Lomborg, how about you? Did you----
    Dr. Lomborg. Well, again, I would also take my starting 
point with the U.N. Climate Panel. If we don't do anything, 
they find that the likely range towards the end of the century 
for RCP 6 is 1.4 up to 4.8 for RCP 8.5. And again, the sea 
level rise would be somewhere between half and a full meter. 
I'm very surprised with Steer's 2 meters. That's certainly not 
in the standard range.
    Mr. Weber. Okay. Thank you.
    Gentlemen, as the President flies over to Paris to attend 
something that Mr. Cass and Mr. Grossman says he doesn't have 
the authority to do or that you've showed that he doesn't have 
the authority to do, is there any idea of what that--has 
anybody done the research? Do you know what that costs the 
American taxpayer? Anybody have that figure? Dr. Steer?
    Dr. Steer. I beg your pardon, the cost of the----
    Mr. Weber. The cost of his going over to Paris for the 
climate negotiations that these two gentlemen have shown that 
he doesn't have the authority to do without, you know, Congress 
weighing in to spend the money for what he wants to agree to.
    Dr. Steer. I could talk about the cost of the Clean Power 
Plan but not about his trip to Paris.
    Mr. Weber. Okay. Do any of you have--go ahead, Dr. Lomborg.
    Dr. Lomborg. Sorry. I mean if you use the latest Stanford 
Energy Modeling Forum for the United States and estimate what 
is it going to cost to cut 26 percent below 2005 by 2025 with 
the most efficient metric possible, so remember, this does not 
include----
    Mr. Weber. Well, but I'm----
    Dr. Lomborg. --undoubtedly, it's not the most----
    Mr. Weber. Dr. Lomborg, I'm just talking about his trip, 
just his trip over there.
    Dr. Lomborg. Oh, I'm sorry.
    Mr. Weber. No, I got you. I got you. All right. Let me move 
on.
    Does anybody know what the cost in terms of the output of 
the CO<INF>2</INF> are for the trip? Everybody seems to be 
concerned about the cost of the output of CO<INF>2</INF>. Has 
anybody calculated that? Dr. Steer, I'll start with you.
    Dr. Steer. No, Congressman.
    Mr. Weber. Dr. Lomborg?
    Dr. Lomborg. No, I don't know.
    Mr. Weber. Okay. So climate change--Dr. Steer, you made the 
comment earlier--or actually, I think Dr. Lomborg said that he 
quoted people saying we're actually going to make money from 
this. Well, there's people making money from pushing climate 
change, no question about it, in my estimation.
    One of the proponents of climate change on a national stage 
is actually presidential candidate--is reported to be saying--
Bernie Sanders--that climate change caused the rise of ISIS. 
Are y'all aware of that? Just as a question, Mr. Cass, would 
you agree with that assertion?
    Mr. Cass. No.
    Mr. Weber. Mr. Grossman?
    Mr. Grossman. Of course not.
    Mr. Weber. Dr. Steer?
    Dr. Steer. In the eight years leading up to the Syrian 
Civil War, there was a drought----
    Mr. Weber. Okay.
    Dr. Steer. --so, too, in northeast Nigeria where Boko Haram 
has emerged there's been a drought----
    Mr. Weber. So back when the Sunnis and the Shias split some 
six, seven, eight hundred years ago, was that because of 
climate change?
    Dr. Steer. No, I'm not making that link at all, sir.
    Mr. Weber. Oh, I got you. Okay. Smart man in that regard.
    Dr. Lomborg?
    Dr. Lomborg. It's very, very tenuous, that connection.
    Mr. Weber. Okay. One of the other comments was made--and 
I'm going to move on very quickly now--that Kennedy wanted to 
go to the moon and so people--and that was a good thing and 
we're going to--climate change ought to be tackled because it's 
hard as well. But refresh my memory from the historical 
perspective because y'all have checked into this, back then, 
Congress was with him and actually appropriated the money to do 
that. Is that correct, Mr. Cass, your recollection, or Mr. 
Grossman?
    Mr. Grossman. That's absolutely correct, and indeed, that 
was--the President put special emphasis on that.
    Mr. Weber. Right. And so you had the people with him at 
that point.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    And the gentlewoman from Massachusetts, Ms. Clark, is 
recognized for her questions.
    Ms. Clark. Thank you, Mr. Chairman, and thanks to the 
witnesses.
    Dr. Steer, if I can follow up, what we're hearing from Dr. 
Lomborg is small impact on what we're going to do in Paris, big 
cost that far outweighs, and we could spend our resources 
better. How is that analysis changed when we look at what you 
are saying are what I believe the false assumptions that at--by 
2030 we would just go back to what we were doing before? Does 
that change your analysis or do you see what we're starting in 
Paris as part of iterative process that would move forward to 
different policies?
    Dr. Steer. Thank you, Congresswoman. Yes, exactly right. 
You put it exactly right, I think.
    Look, one thing that does have to be made clear is that 
the--that in Paris there needs to be some tough negotiating to 
make sure that everyone is transparent, to make sure that every 
five years we do come back and we ramp up our ambition, and 
that we have a long-term goal.
    So I'm not sitting here today to tell anybody that Paris is 
solving the problem. I have no incentive of exaggerating the 
benefit of Paris. Why? Because I want to solve the problem of 
climate change. If I believed Mr. Lomborg, I would say it 
because I would be upset at Paris. The estimates we've done--
and we've got very, very good economists working across a lot 
of different models--is that actually--that the actions in 
Paris are quite significant, but they are not enough. And what 
we have to do is get precisely the kind of dynamism that's in 
your question playing through. And the way you do that is have 
really tough transparency, you have really clear renegotiation 
every five years to ramp up ambition.
    Ms. Clark. And that is necessarily a process that we have 
to go through, that we didn't come to this point--and what I'm 
heartened by by Dr. Lomborg is, unlike some previous witnesses 
we've had that have said, yes, climate change is a huge 
problem, it's going to be devastating to agriculture and our 
economy, but in the end we must continue the status quo, 
business as usual, at least Dr. Lomborg is saying we should be 
investing in research and development, which we all--well, 
certainly the two of us agree that that is where we need to 
also be working on.
    But it sort of brings me to looking at RGGI, which you 
brought up in your testimony, coming from Massachusetts, 
looking at the successes of that, and talking about taxation 
and creating the right incentives so we grow our economy, we 
create jobs of the future, would you say that a key piece of 
the policy moving forward after Paris is looking at setting 
market prices for carbon?
    Dr. Steer. Yes, indeed I do. I think that the--I am a 
strong believer that the President's Clean Power Plan is a good 
plan, but it would be better if it were complemented with a 
serious price on carbon. As I said before, this has nothing to 
do with big government or small government. This has to do with 
putting a price on things that are hurting citizens and not 
putting a price on things that are helping citizens like hard 
work and profit. So we should shift the tax, as fiscal 
economists have been saying for many decades now, but very few 
countries have actually managed to do it.
    So I agree very much with you. The States that are part of 
RGGI have been growing more rapidly than States that are not 
part of it, and serious analyses have been done on that.
    Ms. Clark. And do you think that it would take setting that 
at a national level to really see the promise of RGGI--I mean 
is that a place for American leadership?
    Dr. Steer. Well, there are now about 40 countries that are 
setting a price on carbon, and many others are considering it. 
Even countries like South Africa will be introducing a tax on 
carbon soon and offsetting it against reductions in taxes 
elsewhere. By 2017 China will have a nationwide cap-and-trade. 
We don't need a nationwide tax or price on carbon, but it would 
certainly help a lot.
    Ms. Clark. Great. And talking about American leadership, in 
Paris what do you see--what does it mean to the other countries 
to have us there and to be present and to be leading in this 
area?
    Dr. Steer. Oh, look, I was in China last week. I absolutely 
am certain that the radical change in the Chinese position 
since Copenhagen or really since three years ago is due to 
conversations and serious negotiations with the United States. 
And so, too--others are coming along, too.
    And interestingly, yesterday, when the R&D proposal was 
announced--it includes developing countries like India, like 
China, like Indonesia--this would not be happening, this level 
of coordination, had it not been for the United States, and 
certainly, we would not have 183 countries which have now made 
pledges for 2025 and 2030.
    Ms. Clark. Thank you. I yield back.
    Chairman Smith. Thank you, Ms. Clark.
    The gentleman from Texas, Mr. Babin, is recognized for 
questions.
    Mr. Babin. Yes, sir, Mr. Chairman. Thank you.
    Very interesting. Thank you, witnesses, for being here.
    Mr. Cass and Mr. Grossman, the Paris conference appears to 
be all about climate financing. I heard Dr. Steer a while ago 
was talking about how enthusiastic the Indian Prime Minister 
was in Paris. Maybe that has to do with all the wealth transfer 
that the developing nations might be getting from the developed 
nations.
    But not only is the United States supposed to hobble its 
own economy with the Clean Power Plan in the name of the 
President's climate agenda, it must also pay billions to these 
developing countries. Do you agree with my assessment that we 
are transferring wealth?
    Mr. Cass. That's certainly what is being expected of us and 
what I think President Obama would like to commit to. Until 
Congress appropriates it, though, it will not actually go out 
the door.
    Mr. Babin. Right. And how about you, Mr. Grossman?
    Mr. Grossman. I agree with that. I mean that's--you know, 
the idea that we would be transferring wealth in the form of 
foreign aid is an integral part of the agreement, albeit one 
that, given the legal--current legal authority, is not 
enforceable at this time.
    Mr. Babin. Right. Okay. And this is for Mr. Cass, Mr. 
Grossman, and Dr. Lomborg. I'm worried that regulations 
associated with climate change will increase the cost of energy 
to American citizens and especially my constituents in east 
Texas. Could you describe how increased energy costs impact the 
macroeconomic health of the United States both for primary 
energy users and end-use consumers?
    Mr. Grossman. Well, I think one thing to note in particular 
is Texas is in a very unique situation, is uniquely harmed by 
the Clean Power Plan and by other regulations that increase the 
cost of energy. Texas is on its own grid and--known as ERCOT, 
and so for that reason what we've seen is regulations that 
affect the use of traditional fuels in that area tend to cause 
price spikes within the Texas area, which is something that 
potentially is very damaging to Texas's economic growth. And, 
you know, to this date it's been one of the bastions of growth 
in the country. And, you know, if you looked at the overall 
energy policy and how it affects Texas, that status is 
potentially at risk.
    Mr. Babin. Thank you. Mr. Cass?
    Mr. Cass. Well, I think we actually have the Clean Air Act 
to look at in this respect to understand what happens when you 
see regulations on the energy sector and other heavy industry. 
And I provide the citations in my written testimony, but 
there's very good peer-reviewed research that has been done on 
what happened when we applied strict pollution controls in that 
context. There was the loss of hundreds of thousands of jobs, 
the long-term reduction in the earnings of people in affected 
industries, decline in the profitability of manufacturing, and 
also a sharp decrease in the number of new facilities that were 
opened.
    And again, there may be benefits to offset costs in some 
contexts, certainly the Clean Air Act has achieved significant 
public health benefits, but it's critical to understand what 
those costs are and understand that in the Clean Power Plan we 
are taking on the costs and yet we're not getting the benefits.
    Mr. Babin. Right. Okay. Thank you.
    And, Dr. Lomborg, are you still there?
    Dr. Lomborg. Yes, I am. And, you know, very bluntly, yes, 
of course, if you increase the cost, if you say you have to buy 
energy that's more costly, the price will go up. But what we've 
also seen in Europe is that we have dramatically increasing 
power costs. The--Germany and Denmark, I'm sorry to say, are 
the most expensive countries in the world for energy, certainly 
in the industrialized world, and the costs are typically in the 
order four times as costly as what your constituents are paying 
for their electricity. So, yes, it really does have impacts. 
And of course, remember, this is a regressive tax because the 
poor will actually end up paying the most.
    And what we're seeing, for instance, in many places in 
Europe there's--there are a lot of people who are now no longer 
able to pay their electricity bills. For instance, in Britain 
there is an increasing number of people who are energy-poor who 
are spending a very disproportionate part of their income on 
paying off energy and have to make very hard decisions on which 
rooms do I want to keep heated during the winter.
    Mr. Babin. Okay. Thank you very much. And then also, just 
yes or no, do high energy prices spill over and translate and 
impact everyday items like cost of groceries, everyday goods 
and services? And are there other areas where energy prices 
will impact the United States and especially my district in 
Texas? Can energy prices impact national security or the 
stability of financial markets? Mr. Grossman?
    Mr. Grossman. Yes. Energy is an input into everything that 
we do.
    Mr. Babin. Absolutely. Okay. Mr. Cass?
    Mr. Cass. Yes, I would agree with that and note that it 
also poses a competitive problem for the United States against 
countries that are not imposing similar costs.
    Mr. Babin. Okay. And, Dr. Lomborg, are you still----
    Chairman Smith. The----
    Dr. Lomborg. Yes, it does have real impact. So everything 
else gets more expensive.
    Mr. Babin. So the American people will suffer the 
consequences of this plan is what it looks like to me. Thank 
you very much.
    Chairman Smith. Thank you, Mr. Babin.
    The gentleman from California, Mr. Takano, is recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to point out that President 
George W. Bush deserves some credit for the point we are at 
with the Paris climate talks. It was his Administration in 2007 
that negotiated the Bali Action Plan that eliminated a major 
roadblock to international climate policy. Developing countries 
such as China, Brazil, India, and South Africa finally went on 
record and agreed to submit their own cleanup plans. This set 
the stage for the negotiations taking place this week. So 
congratulations, President George W. Bush, for getting us to 
this point.
    Dr. Steer, the United States has a long history of leading 
global efforts on issues that have impacts beyond our borders. 
In the past, these kinds of global partnerships have had 
positive impacts on human rights issues, world trade, world 
health, trade, and technology innovation. It should be--it 
should surprise no one that the United States is now ready to 
lead the international response to climate change.
    In a relatively short period of time, we have seen 
developing nations step up and make commitments to reduce their 
GHG emissions.
    Dr. Steer, how has the United States' willingness to act 
decisively on climate change affected the response from the 
rest of the international community?
    Dr. Steer. Thank you, Congressman. The United States is the 
leader in the world on technology. And its technological 
advances over the last few years have made it much easier for 
others to join in the discussion.
    Second, the fact that the United States is now taking firm 
action itself puts a lot of pressure on others. And the 
diplomatic efforts of the United States have been very, very 
positive in bringing the 183 countries that are now signing up 
to action.
    Mr. Takano. Well, thank you very much. I yield back, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Takano.
    And the gentleman from Michigan, Mr. Moolenaar. Woops. I am 
sorry. The gentleman from Georgia, Mr. Loudermilk, is 
recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman. I appreciate this 
hearing.
    Something that Mr. Lomborg stated a minute ago really had 
an impact on me is the cost of electricity in Europe has 
dramatically risen. And it's four times what it was. And what 
I've read about the CPP, the effect it would have in Georgia is 
an increase of about 17 percent. And 40 percent of Georgia's 
electrical customers earn less than $40,000 a year.
    So I'm having some grave concerns, as it was already stated 
here today, that these regulations impact the most vulnerable. 
They have the greatest impact on the most vulnerable in our 
society. It's not just in climate regulation. If you look at 
Dodd-Frank, Dodd-Frank had a negative impact on Wall Street. It 
had a negative impact on the big mega businesses. But it was 
devastating to small struggling businesses because the big 
businesses can absorb the additional cost. The big businesses, 
it's going to have an impact. The CPP will have an impact, but 
they'll be able to absorb these costs.
    One way that they'll absorb the costs is to cut their 
spending by laying off employees. They're already talking about 
closing a power plant in my district, possibly up to 2,000 jobs 
being lost.
    I want to use not modeling or hyperbole but real-life 
instances of how this diminishing return of over-regulating 
affects the lives of everyday struggling Americans. I have an 
article here from National Public Radio, which is not known to 
be a strong right-wing publication by any--or radio outlet by 
any stretch of the imagination. It's talking about a 65--or an 
elderly woman that basically--her name is Lydia Smith. She's 87 
years old, and she's living on $900 a month Social Security. 
That's all that she has. She has no retirement after working as 
a store clerk for most of her life. She never saved. As you're 
finding out today, a lot of our Baby Boomers have not saved for 
retirement. They're living on a fixed income that comes in.
    Even though she gets Section 8 housing, she still pays a 
third of her income, $300 goes to rent. She spends $600 on 
everything else, everything else that she needs to live. She 
rarely leaves home. In fact, it says in the interview that she 
mostly exclusively shops at Goodwill because that's all she can 
afford. And what does she shop with? Well, her residual income 
is $20, $20. That's her residual income that she has to live 
on.
    Under the CPP it's estimated that her power costs will go 
up $20. So what is Ms. Smith to live on? What is going to 
happen when her electricity prices go up? She's on most every 
government program except for food stamps at this point. Not 
only is it going to have a devastating impact on her, but when 
you look at what the impact it's going to have on businesses, 
and again, reiterating what everybody's said here, it's going 
to be a minimal impact on the climate, but we're going to see a 
significant impact on the lives of human beings in the name of 
making a statement or the hope that we may get some kind of 
.007 degree decrease in temperatures that we're not even 
totally sure that we're causing.
    I don't understand how we go down this path to the point of 
diminishing returns and then, when these businesses get the 
impact, they're going to lay off more and there are going to be 
more people in the position of Ms. Smith.
    Mr. Cass, am I totally off base or is this the direction 
that we're going with these radical climate regulations?
    Mr. Cass. Well, I think you're focusing on a very important 
issue, which is who is actually hurt by rising energy prices. 
And you're exactly right that it takes the largest bite out of 
those with the lowest incomes. And so it has both that direct 
effect on individuals and then it's going to have broader 
effects on communities, as you see impacts on the economy more 
broadly.
    Mr. Loudermilk. Mr. Grossman, do you--I know that you're a 
constitutional attorney, but in your opinion----
    Mr. Grossman. Mr. Congressman, I don't think what you're 
saying is a controversial view at least in general. I mean if 
you look at the EPA's own publications, EPA acknowledges that 
there's no free lunch and that these things come with costs. 
And so I find it very surprising to hear from some people that 
all of this is going to pay for it because they never explain 
how someone like this Ms. Smith you describe, how somehow she's 
going to get the money back in her pocket. And I don't know how 
that would happen.
    Mr. Loudermilk. I mean with $18 trillion debt, are we just 
going to dump more--I know I'm out of time, Mr. Chairman, but 
the American people continually say that they want commonsense 
legislation. They want common sense coming out of Washington, 
and I have not been able to make any common sense out of the 
CPP or any of the administration's radical agenda.
    So I yield back.
    Chairman Smith. Thank you, Mr. Loudermilk.
    The gentlewoman from California, Ms. Lofgren, is recognized 
for her questions.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I think this hearing is an important one, coming as it does 
as leaders of the world are attempting to cope with the 
catastrophe of climate change that our planet is facing. And as 
we talk about really small board issues here, hey, I was 
fascinated to hear the comment that, you know, there are--
mitigation issues would somehow help, that we should look at 
the Dutch and the dikes that they've done as if that would 
solve the problem of acidification of the ocean and the 
collapse of the food chain that the elderly and the poor will 
also face if we don't deal successfully with this challenge.
    You know, Dr. Steer, my home State is California. We've 
always been a leader and we've always set the pace on climate 
change, and we have actually set some goals in California. And 
what we did, I mean, was--has actually increased the amount of 
alternative energy substantially in the last number of years. 
The solar industry in California created more than 54,000 jobs, 
and with our new commitment to 50 percent renewables by 2030, 
the estimate is that employment in the alternative energy 
sector will far surpass employment in the fossil fuel industry.
    You mentioned that climate-smart policies can provide a 
credible and predictable policy environment and give private 
investors the confidence needed to invest in, deliver, and 
create greater economic efficiency and innovation. Can you 
elaborate how the Administration's Clean Power Plan and the 
agreement in Paris might encourage even more energy investment 
and reduce barriers to implementation of new energy 
technologies?
    Dr. Steer. Thank you, Congressman--Congresswoman. I agree 
very much with you that, as we move forward, the new economy 
will generate a lot more jobs than the one we're losing. But we 
still obviously--as you implied, we have to be very sensitive 
to the fact that we do need a just transition. Whilst the 
Nation as a whole will benefit, that doesn't mean every single 
company will benefit or every single citizen will benefit, and 
we need a just transition. And we've learned a lot about how to 
compensate those that will be harder off.
    It turns out, by the way, that if you look at the entire 
impact of the President's climate plan, whilst in the near-term 
it's true that electricity costs per kilowatt hour will rise, 
that will be more than offset by savings due to energy 
efficiency, so household overall bills will in time be 
considerably less.
    But there still is that situation. I agree very much with 
you that what we are seeing now--and your own State is a very 
good example of this. Google has just made the biggest 
investment in a renewable energy plan in Africa, in Kenya. 
Google has. And that's because--and it's a commercial venture. 
And I think we were talking earlier about the need for money to 
go in. The overwhelming bulk of money will be private money, 
companies like Google that see where the future is and they're 
investing.
    And what we're hoping for out of Paris are clear signals so 
that kind of investment and thousands more like that will 
become the norm.
    Ms. Lofgren. Well, thank you, Dr. Steer. It seems to me 
what we've seen most successfully in California is to set 
standards and then the private sector scrambles and innovates 
to meet them. And in scrambling to meet those standards, they 
create tons of new jobs. So isn't that what we're trying to 
bring to the whole world?
    Dr. Steer. Absolutely right, yes. I think everybody agrees 
that the government has some role in setting standards. 
Otherwise, you know, my kids would be electrocuted because, you 
know, it does take regulation. So we shouldn't be sort of 
oversimplifying this. Standards on, for example, the Energy 
Star system has saved hundreds of billions of dollars for 
consumers.
    So you're absolutely right. The private sector will drive 
everything, but they do so within a sensible environment 
created by government.
    Ms. Lofgren. I'll just close by saying that the cost of 
doing nothing is immense, and we're already seeing it. In 
California we've had the largest drought in 1,200 years. The 
aquifer has been reduced and the land is sinking. It won't be 
replaced, takes 1,000 years to replenish that aquifer. So we 
have an issue about providing food, providing water. We've got 
rising sea levels. We've got collapse of the fishing season 
because of climate change in the ocean. So to think that doing 
nothing is cost-free is very false.
    And I see that my time is expired, Mr. Chairman, so I yield 
back.
    Chairman Smith. Thank you, Ms. Lofgren.
    The gentleman from Louisiana, Mr. Abraham, is recognized.
    Mr. Abraham. Thank you, Mr. Chairman. And I'll thank the 
witnesses, especially Dr. Steer and Dr. Lomborg, for their 
efforts to be here either in person or by videoconference. And 
our Chairman Dr. Smith has had thankfully many hearings on this 
Clean Power Plan rule that we're discussing today.
    And I've looked back at past testimony and certainly the 
previous testimony today, and the figures that I come up with 
are if we go all in with President Obama's full compliance is 
that it could cost up to five trillion dollars per year, which 
is over nine percent of our GDP.
    Now, the United States--the other figures I've seen that 
40--at least 40 of our states would have increases in 
electricity costs of somewhere between ten and seventeen 
percent. And India, China--and, Dr. Steer, you said that, you 
know, China was glad that we're leading the role--or leading 
the charge so to speak. But if you look at China's own reports, 
they say that their coal consumption has increased 17 percent 
higher than previously anticipated. So they are--India, China, 
and some of these underdeveloped countries are building coal-
fired plants at unprecedented rates. So for us as Americans, 
we're--I look at it as kind of an all-pain/no-gain scenario 
from our previous stance.
    Now, the other thing that President Obama has said as far 
as the Paris talks are that it will be a ``powerful rebuke to 
terrorism'' because they are holding this climate meeting in 
Paris. But U.S. intelligence reports also tell me that ISIS--
and I think it's been mentioned by one of our members--receives 
up to half-a-billion dollars a year through the sale and 
control of Middle East oil reserves. So as our Commander-in-
Chief, I think the President probably made a bold statement. It 
is a powerful rebuke to terrorism, but as his assumed role as 
our commander of climate change, he's not allowing our 
businesses with this Clean Power Plan act to do business and 
make American more energy-independent.
    So I guess it will be a rhetorical question, but I'll ask 
you, Mr. Cass, wouldn't it be a more powerful rebuke to ISIS 
and other terrorists groups if the President worked to actually 
enact policies that would make America more energy-independent 
so that we don't have to turn to groups of the Middle East to 
receive our oil?
    Mr. Cass. You know, I don't think it's especially 
constructive to try to take every other issue out in the world 
and draw it back to climate change somehow. I think that is a 
rhetorical device that has stirred up a lot of confusion but 
does not really reflect on the relevant energy policy choices 
or the relevant choices for international negotiation.
    So I would say the preferable approach would be to focus on 
what our energy policy actually does and does not accomplish 
with respect to the climate instead of suggesting that it has 
anything to do with ISIS.
    Mr. Abraham. Would you say, Mr. Cass, that the current 
policies, if we continue down this road, do restrict our energy 
companies from making American more energy-independent?
    Mr. Cass. I don't know that the Clean Power Plan will have 
a significant effect on energy independence. It focuses almost 
entirely on the electricity sector for which we already get all 
the necessary fuels domestically, whereas it's really oil that 
is the issue of concern for energy independence.
    Mr. Abraham. Correct. Thank you, Mr. Chairman. I yield 
back.
    Chairman Smith. Thank you, Mr. Abraham.
    And the gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. Thank you, Mr. Chairman.
    Dr. Lomborg, you're still with us?
    Dr. Lomborg. I am.
    Mr. Beyer. Great, thank you very much. I've been reading 
your ideas for some time now and have always found them very 
interesting. In my simple terms, you agree that climate change 
is real and it's manmade but the costs to stop or significantly 
slow this is much greater than the cost to simply adapt to it.
    And I know you're aware that U.S. military strategists have 
been very concerned about the accelerating effects of climate 
change will lead to more conflict, revolution, even wars. Do 
you factor these costs, loss of human life, economic 
destruction, war materials, et cetera, into the overall cost of 
adapting to letting climate change just proceed?
    Dr. Lomborg. I should just say I don't necessarily say that 
we should just adapt. I do try to say we need to prioritize how 
much are we going to adapt and how much are we going to reduce 
our emissions. So it's definitely going to be a balance.
    But to answer your specific question, we do try to take 
into account a lot of the costs in the models, so we do look at 
heat deaths, cold deaths, deaths from more polluted water, 
costs from higher--high amounts of floodings, potentially more 
hurricanes in the long run. So a lot of costs are calculated in 
there, but obviously not all costs. So again, I think in some 
way we're stuck with saying we have the best models available, 
but that doesn't mean it's right. It's probably just better 
than anything you or I or anyone else can come up with as our 
intuition.
    Mr. Beyer. One of the other costs that--it's easier to 
think about retaining walls in Miami than to think about what I 
keep reading as being tens of millions of Bangladeshis that 
will be displaced by even a 1 meter sea level rise. How do you 
get a handle on the modeling of what it takes to relocate 20 or 
30 million people in Bangladesh?
    Dr. Lomborg. Well, I actually--you should be aware that we 
know and we have good data for most of the world which 
indicates that almost no populated areas are going to be 
abandoned simply because it's very cheap to cover the costs 
of--essentially put up dikes and levees to make sure that you 
do not have to relocate.
    And so what is ultimately going to happen is that you will 
see some shore lost in, for instance, Alaska, you'll see it in 
Siberia, some other places, but pretty much everywhere--and 
certainly in Bangladesh, remember, Bangladesh is the most 
tightly populated country in the world. They will definitely 
put up those sea levels--sorry, those sea barriers that are 
necessary simply because it will protect a lot of valuable land 
both for people and for production.
    Mr. Beyer. Okay. Thank you very much.
    Dr. Steer, I keep reading articles about how climate change 
just takes us from one set of climate conditions to a different 
set, as has happened through the ages and that we must and will 
adapt. But I've also long been fascinated by the Gaia 
hypothesis, which states that organisms interact with their 
inorganic surroundings on Earth to form a self-regulating, 
complex system, that there's a homeostasis going on, that we'll 
always adapt to maximize the conditions for life on Earth. Do 
you see any evidence of such homeostatic mechanisms going on 
right now with all the climate changes?
    Dr. Steer. I--Congressman, I think the planet will take 
care of itself; it's us I'm worried about. Or it's actually our 
great-grandchildren I'm worried about. And I'm profoundly 
worried when I hear my good friend Bjorn Lomborg say don't 
worry, Bangladesh will be able to build dikes. I think that is 
something we have to think very, very deeply about. Fifty years 
from now the idea that something that's never been proven 
before-it's absolutely the right thing to do. The Netherlands 
does it. The Netherlands does it but the Netherlands is very 
worried because--and that's why the Netherlands is a champion 
to change things now because they know how difficult it is, how 
expensive it is, and how risky it is to be building dikes. So 
we absolutely should not accept that.
    And your point, sir, about the Department of Defense is so 
accurate. Two weeks ago I was with NATO leaders. They are 
profoundly worried about the security risks of climate change. 
In many ways it is Departments of Defenses around the world 
that are the ones that are ringing the bell most loudly. So I 
really do agree with you there.
    Mr. Beyer. And, Dr. Steer, thank you for going right to the 
correct answer to the question, which is we talk so many times 
about, yes, the climate changes and changes and we've always 
adapted. What they miss is that, you know, life will adapt but 
the impact on human beings is very significant. And if you look 
at how climate changes in the past, it has led to, you know, 
dramatically different conditions for humanity, including the 
agricultural revolution. So thank you very much.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Illinois, Mr. LaHood, is recognized.
    Mr. LaHood. Thank you, Mr. Chairman. And I thank the 
witnesses here today for your testimony.
    I guess in looking at what the President and the 
administration are doing in Paris, you know, the words that 
come to mind in some respects is almost illegitimate in terms 
of the pact or agreement that they're working on.
    And I guess my question to you, Mr. Grossman, in terms of 
circumventing the Congress and kind of doing an end run is what 
this looks to be, you know, whether we call it an agreement or 
a pact or whatever comes out of Paris, you know, is there going 
to be advice and consent from the Senate? Is there going to be 
ratification there? Is there going to be any input from the 
House or Senate? In looking at the elected Congress, what role 
will the elected Congress play in having input on something 
this significant?
    Mr. Grossman. Thank you, Mr. Congressman.
    When you look at what the Administration has discussed so 
far, they spoke in terms of a hybrid agreement where the 
central planks of the agreement--in other words, we're all 
assuming that there's going to be this agreement and countries 
are going to follow through on it in terms of financing and in 
terms of reaching emissions targets.
    But the way the Administration has looked at it, due to the 
fact that they don't want to come to Congress, has been to have 
a hybrid agreement where those central planks aren't 
enforceable in any sense. They're pledges, they're promises, 
they're things that may or may not happen, but at the end of 
the day, you know, as a lawyer, I look at what does the law 
require you to do, whether that's international law or domestic 
law. And what's being contemplated at this point is an 
agreement that has no teeth, that doesn't commit anyone to 
anything.
    So in that instance on the one hand, as a legal matter, 
that probably would not require advice and consent of the 
Senate. On the other hand, it doesn't really have any 
substance.
    But if the President were to go beyond that and to attempt 
to enter into binding commitments, I think he would--that would 
raise some very serious constitutional questions and would 
really call into question the legitimacy of the United States' 
involvement in such an agreement.
    Mr. LaHood. And is there legal precedent for other things 
that have circumvented the Congress that have been upheld in 
federal court?
    Mr. Grossman. I think in this instance we're really going 
into new territory because if you look, for example, at the 
Kyoto Protocol, both political branches recognized that the 
binding emission reductions that were part of that protocol, 
even though Bill Clinton had signed it, they recognized that 
Senate ratification was a part of it. It had to go through as a 
treaty. And because that never happened, because there wasn't 
the political support for it, the United States never ratified 
it, never deposited its documents of ratification, and it never 
took effect here.
    And so given that kind of precedent, I think the 
Administration would be on very shaky legal ground were it to 
agree to any type of binding commitments.
    Mr. LaHood. Thank you. Mr. Cass, I wanted to follow up with 
you. You know, in looking at this agreement and looking at how 
we verify that foreign countries--India, China, Russia--are 
going to be compliant with the commitments in this agreement, 
you know, can you elaborate on that, you know, in terms of what 
satisfaction we can have that they are going to be compliant 
when they haven't had a very good track record of doing that?
    Mr. Cass. Well, you know, I think one enormous challenge in 
that respect is that a lot of these countries don't really even 
have a mechanism for tracking even if they wanted to be 
transparent. You know, there was an enormous story very 
recently when China admitted it was using about 17 percent more 
coal than it thought. It was an entire new Germany worth of 
emissions just within China. And the striking thing is that the 
Chinese said, well, of course we're not going to change any of 
our commitments. It probably makes it easier to meet our 
commitments, but we're not going to change anything as a 
result.
    And so I think, you know, accurately tracking the pledges 
is an important challenge. The interesting thing with countries 
like China and India, though, is that they have not pledged to 
do anything except the trajectory that they were already on. 
And so in that respect the question is less how do we make sure 
they do what they promised than why is no one standing up and 
saying they haven't promised anything?
    Mr. LaHood. Well, as just a follow-up on that, you know, I 
was going ask you--I was going to read--there was an agreement 
released by the White House regarding its 2014 U.S.-China Joint 
Announcement on Climate Change, and it said, ``China intends to 
achieve the peaking of CO<INF>2</INF> emissions around 2030.'' 
There is presumably a reason China committed to peak ``around 
2030'' and that word around is really undefined in this, and so 
we have no idea if this means 2031, 32, 35, or even later.
    And I guess in looking at that, I mean doesn't this give an 
incentive to china to go beyond that in using that kind of 
undefined ambiguous language? That concerns me.
    Mr. Cass. Well, you know, the reason that that is what 
China agreed to is because they had already done the work and 
knew that that is around when their emissions would peak 
anyway. Unfortunately, President Obama knew this as well. The 
U.S. Government's own Lawrence Berkeley laboratory had done a 
very in-depth study four years earlier and had already said 
based on the way China's economic development is going, it will 
peak its emissions around 2030. So for China to make that 
commitment now is essentially a promise to do nothing.
    And the fact that we are applauding that and putting our 
own very costly commitment up against it is really just another 
example of how poorly we are positioning our own country's 
interests on the international stage.
    Mr. LaHood. Thank you, Mr. Chairman.
    Mr. Johnson of Ohio. [Presiding] Yes. The Chair will now 
recognize our colleague from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Mr. Chair.
    Obviously, there are big differences of opinion between 
both sides of the aisle on this subject. We agree on quite a 
few things on this committee but this is not one of them. And 
it's disappointing to me but that's the way it is.
    So, Dr. Lomborg, I want to start with you. You've been 
talking about dikes and I'm just looking--are you in Copenhagen 
now or where are you?
    Dr. Lomborg. I'm in Paris right now.
    Mr. Perlmutter. You're in Paris but you spoke fondly of 
Copenhagen so I assume that's got some--it's close to your 
heart in some fashion. Is that where you're from----
    Dr. Lomborg. Yes, it is.
    Mr. Perlmutter. --or your family? Okay. So Copenhagen, I 
was just looking at it. I mean, it's pretty much at sea level 
or below sea level, is it not?
    Dr. Lomborg. It's at sea level and higher, yes.
    Mr. Perlmutter. Okay. So have you estimated how much it's 
going to cost Copenhagen to build the dikes that you say might 
be necessary--and I think you said sea levels are going to rise 
between a half and a meter. Dr. Steer said between a half and 2 
meters and you kind of objected to that. But how much are the 
dikes going to cost Copenhagen if it goes a meter, which is 
your testimony?
    Dr. Lomborg. Yes. I'm sorry, I don't know the numbers for 
Copenhagen. I do know the numbers that have been published 
internationally in period for--globally, and they indicate for 
almost all countries the cost of adapting to sea level rise up 
to a meter is less than 0.1 percent of GDP, and mostly much, 
much less. So it's a fairly small cost.
    Mr. Perlmutter. So who----
    Dr. Lomborg. It's not a trivial cost----
    Mr. Perlmutter. I mean the----
    Dr. Lomborg. --but it's a----
    Mr. Perlmutter. You mean the world's GDP?
    Dr. Lomborg. Of the individual nations. But yes, of course, 
for the world it will be the world's GDP.
    Mr. Perlmutter. When was the last time you were in Miami?
    Dr. Lomborg. A couple years ago.
    Mr. Perlmutter. Okay. And you're probably aware that Miami 
is seeing street flooding on a pretty regular basis already, 
are you not?
    Dr. Lomborg. Yes.
    Mr. Perlmutter. I mean what's it going to cost Miami to 
build dikes and what do you think----
    Dr. Lomborg. Again, sir----
    Mr. Perlmutter. --what do you think----
    Dr. Lomborg. --I don't know the----
    Mr. Perlmutter. What will that do----
    Dr. Lomborg. I don't know the----
    Mr. Perlmutter. What will that do to their tourism?
    Dr. Lomborg. It will do very little to their tourism. Look, 
again, I think you're trying to pin me into a false dichotomy. 
I'm simply pointing out that trying to do the Clean Power Plan 
or even all of what the U.S. is promising or even what 
everybody is promising, which will cut a couple of inches at 
best of sea level rise by the end of the century is not 
actually a very effective way of helping either Miami or anyone 
else.
    Yes, I do recognize that we need to fix this problem in the 
long run. That's why I'm supporting green energy. But saying 
that we are somehow being illogical by not focusing on say, 
well, let's actually do the things that we can do to help poor 
Bangladeshis today dealing with sea level rise or indeed rich 
Miami--I'm sorry, I'm not sure what to call----
    Mr. Perlmutter. All right. So----
    Dr. Lomborg. --Miamians.
    Mr. Perlmutter. So I mean I guess my question to you is--
and I appreciate that. You're saying we need to do all of the 
above. There should be some mitigation in terms of increased 
temperature, as well as prevention, those areas that are going 
to be especially affected. And is science so good to tell us 
those areas that are going to be especially affected? If sea 
levels rise a meter, does that pretty much flood all of Miami?
    Dr. Lomborg. No, it doesn't. The cost of Miami--the wealth 
of Miami----
    Mr. Perlmutter. It--no--without----
    Dr. Lomborg. --is so great that----
    Mr. Perlmutter. Without dikes, without dikes, does that 
flood Miami? Because Miami is less than a meter.
    Dr. Lomborg. It probably would flood----
    Mr. Perlmutter. So if I just do my basic----
    Dr. Lomborg. --significant parts of Miami, yes.
    Mr. Perlmutter. --map--okay. So, you know, everybody's been 
talking about the cost of this, and so I want to turn my 
attention to you for a second, Mr. Grossman. And you guys have 
an office in Denver. Have--did you talk to anybody in the 
Denver office before you came to testify today?
    Mr. Grossman. No, I did not.
    Mr. Perlmutter. Okay. Do you know what--in Colorado we were 
the very first to pass by ballot an initiative renewable 
portfolio standards. Are you aware of that?
    Mr. Grossman. I'm aware that Colorado has such a law.
    Mr. Perlmutter. Are you aware of what our unemployment rate 
is today in Colorado? Three point eight percent. And I have 
many friends who are partners at your firm, and I'd say that 
they're probably doing pretty well because we are doing well in 
Colorado, despite taking some very rigorous steps with respect 
to the environment because in Colorado we appreciate the 
outdoors, we appreciate our climate, and even so, we've managed 
to continue to have strong employment across all industries, 
except for oil and gas, which has dropped like a rock because 
the Saudis are pumping like crazy.
    So are you--I mean so is it your testimony that because of 
clean action plan or these kinds of things, that that causes a 
reduction in employment?
    Mr. Grossman. I think my testimony concerns the legal 
authority----
    Mr. Perlmutter. All right. So----
    Mr. Grossman. --of the executive to enter into a Paris 
agreement.
    Mr. Perlmutter. Okay. So looking at your testimony----
    Mr. Johnson of Ohio. The gentleman's time has expired. 
Thank you. We have other members that----
    Mr. Perlmutter. That's true.
    Mr. Johnson of Ohio. --need to go.
    The Chair now recognizes our colleague from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    I want to go back to you, Mr. Grossman, and the point you 
were about to make. The President has made it clear that he 
doesn't plan to submit any agreement reached in Paris to the 
Senate. Does the position of Congress, the official position of 
Congress on a particular policy issue have any bearing on 
whether or not the agreement requires Congressional approval?
    Mr. Grossman. Thank you, Mr. Congressman. The answer is 
yes. Congress's position makes a great deal of difference, 
particularly in this instance because potentially the 
Administration, if there were some kind of binding agreement, 
might point to the Framework Convention perhaps as supporting 
that, and were there any legal challenge over that, the first 
thing the courts would look to would be Congressional 
understanding----
    Mr. Palmer. All right.
    Mr. Grossman. --of what that is.
    Mr. Palmer. All right. Let me--I have a little short clip 
I'd like to show if the staff can put that up that I think 
might bring some clarity to where Congress is on this. Can they 
do the video?
    [Video shown.]
    Mr. Palmer. Thank you. Is there any ambiguity there, Mr. 
Grossman?
    Mr. Grossman. No, there is not.
    Mr. Palmer. I don't think that it's an issue here in regard 
to the legality of what the President is doing as to whether or 
not we should debate this issue. Clearly, we should. I think 
that Congress has debated this issue. It's been pointed out 
that Congress brought up a cap-and-trade bill, which is 
arguably the same thing as the Clean Power Plan, and rejected 
it. It was passed by the House but rejected by the Senate. And 
I would like to point out that my colleagues on the Democrat 
side controlled both houses of Congress. So Congress has 
spoken.
    You just heard from the Energy and Commerce Committee--I 
think that was in 2009--who was present as a Member of Congress 
when the Clean Air Act was passed, and it's clear that it was 
never the intention of Congress to give the executive branch 
through the EPA the authority to regulate greenhouse gases.
    So back to your point, I think this is relevant. I think we 
talk about the danger of global climate change, but I think 
there's another danger here that needs to be addressed, and 
that is the loss of the authority of Congress to make laws.
    So I think there's another point I want to make. Dr. 
Lomborg, are you familiar with a paper that was published--I 
think it was last year by Dr. Philip J. Lloyd, who was one of 
the lead authors for the International Panel on Climate Change. 
And he says that he now concludes that the majority of climate 
change is the result of natural variation. Are you familiar 
with that?
    Dr. Lomborg. No, I'm not. Sorry.
    Mr. Palmer. Mr. Chairman, I would like to enter this 
abstract into the record if we may do so.
    Mr. Johnson of Ohio. Without objection.
    [The information appears in Appendix II]
    Mr. Palmer. Thank you. I think that if climate change is 
predominantly the result of natural variation, I think logic 
would require us to put as much emphasis on dealing with the 
consequences of climate change as a result of natural 
variation, maybe even more so as the science continues to 
evolve on this, than spending enormous amounts of money and 
resources on human activities. Would you agree with that, Dr. 
Lomborg? It's a yes or no.
    Dr. Lomborg. Yes, absolutely.
    Mr. Palmer. Okay. I think to you, Dr. Steer, and your 
comments about forcing people into smaller and smaller 
environments and living spaces and changing their cultures and 
how they live reminds me of a book that came out in 1978 by a 
guy named Clarence B. Carson, the ``World in the Grip of an 
Idea,'' and his point, if I may simplify it, is basically that 
there's always this great idea out there that empowers 
government to do things that people don't want it to do to--and 
in this case it's achieving human progress through saving the 
planet and focusing everyone's efforts on that and using 
government power as the instrument to achieve that end.
    My time is expired. I yield, Mr. Chairman.
    Mr. Johnson of Ohio. The gentleman has yielded back. I now 
recognize our colleague from California, Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Chairman. And I appreciate the 
witnesses taking the time to come here today.
    And, Mr. Cass, are you a scientist?
    Mr. Cass. No.
    Mr. Swalwell. Mr. Grossman?
    Mr. Grossman. No, sir.
    Mr. Swalwell. And I know Dr. Lomborg and Dr. Steer are. And 
with respect to Mr. Cass and Mr. Grossman, you know, I think 
one of the chief complaints that my colleagues and I have 
around this issue--we're here talking about climate change--is 
that we're not hearing from scientists. I mean I'm a lawyer. I 
know Mr. Perlmutter is a recovering lawyer himself. But we 
would be best informed by having scientists testify before this 
committee.
    When I was a prosecutor and I wanted to prove a murder 
case, I had DNA testimony, I would not call in somebody who 
watches CSI as my DNA witness. I would call in a scientist. And 
I think the fact that this committee chooses to run from 
science rather than to put forward scientists only hurts our 
ability to get to the bottom of this issue.
    I also am not a scientist but I can read and understand 
numbers. And I've heard so much talk about the will of the 
American people and an elected Congress, and I just wanted to 
go through some numbers for my colleagues. In 2008, a Senator 
named Barack Obama ran for President of the United States. He 
made it unequivocally clear that, if elected President, he 
would take bold actions to address greenhouse gas emissions, 
including the policies he would enact. He was elected in 2008 
by 52 percent of the popular vote and doubled the electoral 
vote that his Republican opponent received.
    In 2012, having already taken four years of actions on 
climate change, he was reelected with 51 percent of the popular 
vote. Over 3 million more people elected him than his 
Republican opponent. A majority of Americans have elected the 
person trying to take on these negotiations. An overwhelming 
majority of nations are participating in these negotiations. 
And an overwhelming majority of scientists believe that climate 
change is real, it's caused by man, and we should do something 
about it.
    Dr. Steer, I ask are we really gathered here today to say 
that so many people are so wrong about this issue?
    Dr. Steer. Well, just last week Pew came out with a poll 
that says 2/3 of Americans want the United States to join the 
Climate Change Pact. So I think you're making a very good 
point, Congressman.
    Mr. Swalwell. And, you know, I really respect Dr. Lomborg's 
position and I respect his credentials, and I think there's a 
difference of opinion here as to the actions. And that's where 
I'd like to see our country really move this debate to, which 
is acknowledging that it's happening, acknowledging who has 
caused it, but really getting into the details as far as 
solutions.
    And if you could summarize, Dr. Steer, what are some of the 
solutions you think that both Republicans and Democrats could 
agree on that could move us forward and show real action on 
this issue?
    Dr. Steer. Well, I do sense that we all care about our 
grandchildren and great-grandchildren, so there clearly, you 
know, is a reason to work together. A price on carbon need not 
be an ideological issue. It need not increase the size of 
government. Indeed, it could shrink the size of government. 
It's just a smart way to re-orientate the way we collect money. 
Go to Singapore and you will find that actually you are charged 
to drive your car into the center of the city. That goes into 
the general revenue. So instead of that, that enables them to 
lower taxes on profits, for example.
    London does the same thing whereby you don't even know-
you're paying the fee as you drive into London, but as a result 
of that, you know, I was born in London, I now will never drive 
into London the rest of my life. I don't need to, quite 
frankly. It's a psychological shift. And life is much better, 
quite frankly. The center of London is better. We have good 
public transportation.
    That's--and as a result of that, the Mayor of London, who 
is a pretty conservative guy, Boris Johnson, he's able to lower 
other fees that the businesses are paying. It doesn't need to 
be ideological at all. So it seems to me that's one area.
    And this is where, you know, I'm really interested by this 
discussion about, you know, China's not doing anything and so 
on. I mean, China is spending far more than any other country 
in the world on renewable energy. It has figured out how to 
invest in research. We should, as we are now going to do, have 
a partnership with them. That should be a reasonable 
understanding that will drive down the costs.
    And by the way, we say that China now is getting off for 
free. In fact, China has a commitment to lower its carbon-to-
GDP ratio by 65 percent by 2030. So don't kid--nobody should 
believe that China's not doing as much as it could.
    Mr. Swalwell. Thank you, Dr. Steer. And I yield back.
    Mrs. Comstock. [Presiding] Thank you. And I now recognize 
myself for five minutes.
    I want to thank Mr. Cass and Mr. Grossman and Dr. Lomborg. 
And I think I wanted to highlight something that you had said, 
Mr. Cass, in your testimony, that ``climate policy that does 
not help the climate is not good policy.'' And I think the 
results are what the three of you are trying to focus on if I'm 
correct, and really looking at a results-focused policy.
    And if I'm understanding this correctly, your concern is 
not--I mean we've had a lot of discussion about the costs and 
things that are running up here, but the real problem here is 
that it's not doing what it says it's going to do, is that 
correct?
    Mr. Cass. That's exactly right.
    Mrs. Comstock. And so the--this sort of--I guess it's 
called pledge-and-review process really is more of a praise-
and-hope. I feel like it's a little bit like when the children 
all get their trophy for the soccer game except this is a very 
expensive trophy because we're hoping this increases their 
self-esteem so to speak or we're hoping they're going to do 
more. I think some of the testimony you had cited was, you 
know, this is--we hope this will all make everyone feel better 
to do a little bit more. So it's not results-focused, so this 
is not about what we intend.
    And I appreciate, Dr. Steer, you recognizing we all care 
about our children and grandchildren because we certainly do 
and want to have a cleaner environment. And I come from 
Virginia, a state that did not put in a renewable portfolio but 
we did work very aggressively on the state level on an all-of-
the-above strategy, seeing where we could find things. We 
actually passed a bill that we're still waiting for the 
federals to allow us to implement, which would have offshore 
drilling and the royalties from that go towards, in part, 
research in our universities for renewables and for alternative 
energies. It would be a way of using what we have now while 
we're investing in these other things without imposing a lot of 
these costs that you were doing.
    And I will point out in Virginia we have a really low 
unemployment rate, too, but unfortunately, in southwest 
Virginia if you talk to my colleague Morgan Griffith, you'll 
find he has a very high unemployment rate due to the decimation 
of our coal industry. And, you know, poverty has its threats 
and problems, too, which they've had to deal with.
    So what I wanted to ask is what--since we really are 
concerned about results and having a cleaner environment, and 
actually, instead of a praise-and-hope, sort of a trust-and-
verify type of system but also very measurable-so that we're 
not just kind of getting together in Paris and doing something 
to feel good but something that will actually improve our 
economy, improve people's everyday life, and not impose on the 
least of us and the poorest of us what they need. So if you 
could describe some of that. I think you've testified to that 
but I wanted to really clarify--you all really are going into--
so there's a third way here we often don't talk about, and I 
think we've sort of been talking past that so I wanted to give 
you an opportunity to----
    Mr. Cass. Yes, thank you. I think that's exactly the right 
way of framing the issue. And I would make two points. One is 
that in terms of affirmative policies that are worth taking, by 
far the most important is investment in research and 
development. And I think you've heard a lot of consensus from 
Dr. Steer, Dr. Lomborg. I would agree with that as well that 
the only way we're going to address this problem long term is 
if we have new technologies that are cheaper than fossil fuels 
that developing countries want to use. And we don't have that 
today.
    I think the second piece that's very important is just some 
fundamental honesty in the processes we're using and what's 
happening. I think you're right to call out this kind of 
pledge-and-review concept as not really being pursued 
faithfully.
    And I would say I genuinely have a tremendous amount of 
respect for Dr. Steer. I think it very--is very problematic the 
way that he has characterized the pledges that countries are 
making. I mentioned that China has pledged only to peak where 
it was going to peak anyway. He didn't contest that. He offered 
a new statistic, which is that they plan to be more efficient 
in their use of carbon, which is true, but Bloomberg New Energy 
Finance, which is a--certainly not a right-wing analyst of 
these issues--looked specifically at that pledge and similarly 
found that that was less aggressive than the trajectory that 
China was already on.
    And you can go right down the list of major developing 
countries. You know, Dr. Steer mentioned Prime Minister Modi. 
India's pledge is perhaps the weakest of all of them. India 
refused to make any pledge with respect to emissions and said 
only that it would improve its efficiency less quickly than it 
is already improving its efficiency. And so, you know, at one 
point Dr. Steer said if I were upset, I would say it. And I 
think it's important that people say it, that this process in 
Paris is not producing commitments, that leadership by the 
United States is not getting developing countries to do things 
they wouldn't otherwise do. And if that's the case, then 
incurring the costs that we're incurring here, even the Obama 
Administration would say doesn't make very much sense.
    Mrs. Comstock. I appreciate that because the worst thing is 
when we cost everyone a lot of money and don't get any results. 
Then that's the worst of all worlds. And I think if we can kind 
of unite on some of those things, you know, we want to have 
good results. So I appreciate your highlighting that and us 
able to also discuss the science of this and getting to a 
results-focused orientation.
    So I would like to, on behalf of the Chairman and on behalf 
of the committee, thank the witnesses for their insightful 
testimony, all of our witnesses, and the members for their 
questions. And the record will remain open for two weeks for 
additional written comments and written questions from members.
    This hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Questions submitted by Ranking Member Eddie Bernice Johnson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Questions submitted by Chairman Lamar Smith

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              Appendix II

                              ----------                              


                   Additional Material for the Record




           Documents submitted by Representative Gary Palmer
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
           

         Statement submitted by Representative Suzanne Bonamici
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


         Statement submitted by Representative Suzanne Bonamici
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         


                                 <all>
</pre></body></html>
